<html>
<title> - HYDRAULIC FRACTURING OF SHALE BEDS: ENSURING REGULATORY APPROACHES THAT WILL HELP PROTECT JOBS AND DOMESTIC ENERGY PRODUCTION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  HYDRAULIC FRACTURING OF SHALE BEDS:
                  ENSURING REGULATORY APPROACHES THAT
                       WILL HELP PROTECT JOBS AND
                       DOMESTIC ENERGY PRODUCTION

=======================================================================

                                (112-61)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
71-234                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Groome, Martie, Vice Chair, Pretreatment and Pollution Prevention 
  Committee, National Association of Clean Water Agencies (NACWA)    14
Hanlon, Jim, Director, Office of Wastewater Management, United 
  States Environmental Protection Agency, accompanied by Cynthia 
  Dougherty, Director, Office of Ground Water and Drinking Water, 
  United States Environmental Protection Agency..................    14
Krancer, Michael L., Secretary, Commonwealth of Pennsylvania, 
  Department of Environmental Protection.........................    14
Murphy, Dana L., Chair, Oklahoma Corporation Commission..........    14
Stewart, Thomas E., Executive Vice President, Ohio Oil and Gas 
  Association....................................................    14

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Groome, Martie...................................................    48
Hanlon, Jim......................................................    51
Krancer, Michael L...............................................    57
Murphy, Dana L...................................................    83
Stewart, Thomas E................................................    90

                       SUBMISSIONS FOR THE RECORD

Bishop, Hon. Timothy H., a Representative in Congress from the 
  State of New York, request to submit letter from Josh Joswick, 
  Colorado Energy Issues Organizer, San Juan Citizens Alliance, 
  November 15, 2011..............................................    44
Krancer, Michael L., Secretary, Commonwealth of Pennsylvania, 
  Department of Environmental Protection, responses to questions 
  from Hon. Timothy H. Bishop, a Representative in Congress from 
  the State of New York..........................................    78

[GRAPHIC] [TIFF OMITTED] T1234.001

[GRAPHIC] [TIFF OMITTED] T1234.002

[GRAPHIC] [TIFF OMITTED] T1234.003

[GRAPHIC] [TIFF OMITTED] T1234.004

[GRAPHIC] [TIFF OMITTED] T1234.005

[GRAPHIC] [TIFF OMITTED] T1234.006

[GRAPHIC] [TIFF OMITTED] T1234.007

[GRAPHIC] [TIFF OMITTED] T1234.008

[GRAPHIC] [TIFF OMITTED] T1234.009

[GRAPHIC] [TIFF OMITTED] T1234.010



                  HYDRAULIC FRACTURING OF SHALE BEDS:
                  ENSURING REGULATORY APPROACHES THAT
                       WILL HELP PROTECT JOBS AND
                       DOMESTIC ENERGY PRODUCTION

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2011

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The Subcommittee on Water Resources and 
Environment will come to order. I would like to welcome 
everybody here today. Secretary Krancer is on his way, he is 
coming through the security line, so he will be here 
momentarily.
    First order of business, I want to ask for unanimous 
consent: Representative Farenthold of Texas is a member of the 
Transportation and Infrastructure Committee, but doesn't sit on 
this committee, and has asked to sit on this committee when he 
arrives. So I have asked for unanimous consent to allow him to 
do that.
    [No response.]
    Mr. Gibbs. Hearing none, so ordered.
    I will start here with my opening statement dealing with 
hydraulic fracturing.
    First of all, again, welcome to today's hearing on 
hydraulic fracturing and natural gas production from shale 
beds, and ensuring that the regulatory approaches governing 
these activities will protect jobs and domestic energy 
production.
    Our Nation is blessed with an abundant supply of natural 
gas trapped in deep underground shale formations. Through a 
technique known as hydraulic fracturing, or fracking, much more 
of this domestic energy resource can be extracted from these 
geologic formations, and used to drive our economy.
    Fracking consists of injecting mostly water and sand under 
high pressure into wells drilled into gas-containing shale 
strata, causing the shale to fracture. As a result of these 
fractures, the formation is able to yield much more of the gas 
that it is holding. Fracking technologies have been used for 
more than 60 years as a means of increasing productivity from 
oil and gas wells. However, the technique has recently been 
applied to gas production in unconventional shale formations 
with remarkable results.
    Just a few years ago, almost no gas was produced from wells 
and shale formations. And today these produce nearly 15 percent 
of the U.S. natural gas production. This percentage is expected 
to grow significantly over the next several decades. As a 
result of applying the fracking technique to shale gas beds, 
the United States is transitioning from a natural gas importer 
to a natural gas exporter.
    In numerous areas around our Nation where shale gas 
formations are found, there has been an economic boom resulting 
from gas exploration and production. Not only is America 
getting a relatively cheap and less polluting source of energy, 
but the activity is generating thousands of direct jobs in the 
drilling, extracting, and refinement processes.
    In Pennsylvania alone, employment is projected to expand by 
over 180,000 jobs during 2012 in the Marcellus shale formation 
in the State. And in my State of Ohio, activities associated 
with energy production from the Utica shale will be responsible 
for generating more than 204,000 jobs and $12 billion in wages 
by 2015.
    In addition to the clear economic benefits of energy 
production through fracking, there is a national security 
benefit, as well. Making greater use of domestic sources of 
energy reduces our dependence on foreign energy sources that 
are often unstable and unfriendly.
    In addition to gas, most wells and shale formations recover 
a large amount of water that may contain high concentrations of 
naturally occurring salts and possibly some naturally occurring 
radioactive materials and other constituents. Thus, waste water 
must be properly managed in accordance with the Clean Water Act 
and other applicable Federal and State requirements.
    Currently, the waste water from a well and a shale 
formation is typically either recycled, or is injected back 
into the deep underground formations, once the gas has been 
extracted. This activity is regulated under the Safe Drinking 
Water Act.
    If waste water were to be to discharged to surface waters, 
it would regulated under the Clean Water Act. This committee 
has jurisdiction over the Clean Water Act. Discharges to 
surface waters are currently not approved. Municipal sewage 
treatment plants are not used for disposal because in many 
cases the treatment plants are not equipped to handle all the 
constituents that may be found in the waste water.
    Fracking, as a means of enhancing gas extraction from shale 
formation, needs to be properly and efficiently managed so 
significant economic benefits and job-producing activities can 
be realized safely and without environmental risk. Thousands of 
fracking stimulated wells have been used to extract energy 
resources in a safe and economical manner. Since fracking began 
more than 60 years ago, the process has been regulated by the 
States. Currently, the regulations of the waste water from the 
well is being done by State agencies, both implementing State 
laws and applicable Federal requirements.
    Last month the U.S. EPA announced that it plans to develop 
new guideline standards for waste water discharges produced by 
natural gas extraction from underground shale and coal bed 
formations. Even though no comprehensive set of Federal 
standards exists at this time for the disposal of waste water 
discharge from natural gas extraction activities, States have 
been picking up the slack to make sure such activities are 
conducted safely.
    Moreover, the States are constantly improving their efforts 
to make sure that extraction of these important energy 
resources are done in a safe and environmentally protective 
manner.
    I am concerned that, given the recent history of the new 
EPA regulations, these new guidelines will be so needlessly 
restrictive that the gas extraction operations in Ohio and many 
other States, and the resulting economic benefits they provide 
the States, will suffer. The economic and national security 
benefits that come from safely extracting gas from shale 
formations are vitally important. We must be sure that the EPA 
thinks carefully before developing new Clean Water Act 
standards that would needlessly restrict this important 
industry, and burden it with an additional layer of duplicative 
Federal regulations.
    I welcome our witnesses to the hearing today, and look 
forward to hearing from each of you. But at this time I would 
like to yield to my ranking member, Mr. Bishop, for any 
statements he might have.
    Mr. Bishop. Thank you very much, Mr. Chairman. Mr. 
Chairman, I welcome this hearing that highlights an issue of 
significant importance to my home State of New York, as well as 
many other States throughout the Nation. In my view, the 
growing national debate on hydraulic fracturing is less about 
whether this Nation will develop its domestic natural gas 
resources, and is more about how natural gas production should 
be developed and regulated to protect American jobs, public 
health, and the environment.
    In my own State of New York, much of the concern about 
hydrofracking, or fracking, has focused on how to ensure that 
the largely unknown cocktail of chemicals and pollutants that 
are injected into the ground during the drilling process do not 
contaminate local drinking water supplies and endanger public 
health or the environment. Where the drinking water sources of 
New York communities are potentially at risk, the State has 
taken prudent and necessary steps to protect them.
    Regarding the focus of today's hearing, I am not entirely 
sure what the majority has in mind. From my perspective, 
today's hearing should focus on the important questions of what 
to do with the chemicals and other fracking byproducts, once 
they cease to be of value for natural gas production and need 
to be disposed of. We will hear testimony about the most common 
methods of handling drilling waste, such as recycling, 
underground injection, or disposal at treatment plants.
    However, if the intended focus of today's hearings is the 
potential impacts of EPA regulations on jobs or domestic energy 
production, then I hope someone can show me which Clean Water 
Act regulations we are worried about. While oil and gas 
producers have long been prohibited from directly discharging 
their waste waters into the waters of the U.S., that sensible 
restriction clearly has not impacted shale gas production 
which, according to the Energy Information Administration, has 
increased by 400 percent over the past 3 years.
    So, what is the issue? It is true the EPA has announced it 
will consider whether a national pretreatment standard for 
shale gas waste water should be established, but that effort 
has just begun, and no regulation will be proposed before 2014 
if the EPA decides a pretreatment standard is even needed at 
all.
    I hope we can all agree that, so far, EPA's fact-finding 
efforts regarding hydrofracking waste water disposal can hardly 
be seen as caustic to business or job creation. Determining 
whether or not hydraulic fracturing waste water disposal has 
any potential negative impacts on public health or the 
environment should not be a cause for alarm. In fact, as 
policymakers we should want to know all that we can about the 
potential impacts hydrofracking may have on our communities, 
our constituents, and our water quality.
    Today most treatment plants are ill-equipped to handle the 
chemicals and other pollutants that may be common to 
hydrofracking waste water. Without additional efforts, these 
chemicals and pollutants may pass through treatment facilities 
and into the surrounding environment, raising significant 
public health and environmental concerns. This should give us 
all pause.
    These concerns were highlighted earlier this year, when the 
New York Times ran a front-page article on ``how the highly 
corrosive salts, carcinogens like benzine, and radioactive 
elements like radium'' in drilling waste are typically not 
removed by sewage treatment plants. According to the article, 
these chemicals and pollutants typically pass through the 
sewage treatment plant untreated, and wind up being discharged 
back into local receiving waters, where they can contaminate 
downstream drinking water sources in the environment.
    In fact, the former secretary of Pennsylvania's department 
of conservation and natural resources, John Quigley, was quoted 
in this article as saying, ``We are producing massive amounts 
of toxic waste water with salts and naturally occurring 
radioactive materials, and it is not clear we have a plan for 
properly handling this waste.''
    I, for one, believe we should dig deeper into the questions 
raised by the EPA, sewage treatment plant owners, and others 
about the capability of sewage treatment plants to adequately 
handle fracking waste. For example, how can systems designed 
with technologies to treat domestic sewage and nutrients be 
expected to safely remove industrial chemicals and naturally 
occurring radioactive materials from the waste water stream?
    More importantly, how can we expect sewage treatment plant 
owners to safely operate their systems, when many times they do 
not even know the chemicals and other pollutants that are 
contained in the drilling waste they are being asked to treat?
    More specific to the topic of today's hearing would be the 
development of Clean Water Act guidelines for discharges 
associated with the natural gas industry sector providing a 
cost-effective, nationally recognized standard for the safe 
disposal of chemicals associated with natural gas production in 
the same way as other guidelines for discharge from other 
industries.
    Finally, I am having trouble keeping up with what role the 
majority intends for State regulatory agencies under the Clean 
Water Act. As I have stated numerous times, the successes of 
the Clean Water Act can be traced to a robust Federal-State 
partnership in addressing water quality impairments. However, 
in bill after bill we seem to be undermining this partnership 
for political expediency.
    A few months ago, with H.R. 2018, the Clean Water 
Cooperative federalism Act, the majority voted to remove any 
Federal role in establishing certain water quality standards, 
leaving States to have the final word. Then, just yesterday, 
the House voted to approve a Coast Guard authorization in which 
the majority formally rejected any role for the States to 
protect important local water resources from invasive species. 
Today I have to assume that we are back to the view that the 
States are better equipped to protect their local water bodies 
from the chemicals and pollutants contained in fracking waste.
    In my view, this committee and the public would be better 
served delving into the complex questions of how best to 
balance our need for domestic fuel production with the 
protection of public health and the environment in a cautionary 
manner.
    In my view, the issues of how we structure the development 
of our domestic natural gas resources is very important, and 
one that needs to be dictated by a modicum of caution. 
Potentially releasing these largely undisclosed chemicals into 
our ground waters, our underground aquifers, and our surface 
waters will have economic, public health, and environmental 
consequences for generations to come.
    We need to be prudent in understanding the implications of 
our actions before we take them, as the cost of cleaning up our 
mistakes afterward has the potential to be massive.
    I yield back the balance of my time.
    Mr. Gibbs. Mr. Cravaack, do you have an opening statement?
    Mr. Cravaack. Thank you, Mr. Chairman. And thank you, 
Chairman Gibbs and Ranking Member Bishop, for holding this 
important hearing on the best way to approach hydraulic 
fracturing regulation.
    I would like to welcome today's witnesses and our panel, 
and I look forward to hearing your testimony about a vital part 
of our country's energy future. I understand that fracking is a 
rapidly growing part of our energy infrastructure, and is 
projected to continue its growth in the years to come. In times 
of rising energy costs and high unemployment, the natural gas 
industry is a major bright spot, providing power to a wide 
range of industries for a low cost.
    I am concerned at some of the steps recently taken to 
expand regulation and oversight on our industry that has done 
nothing to warrant such action. I am very interested to see 
what the EPA's finding are in its upcoming study, and I hope 
those findings don't lead to an increase in energy costs, fewer 
jobs, or handcuff an industry that is very much on the rise to 
reduce our dependence on foreign energy sources.
    I look forward to hearing the witnesses and their thoughts 
on what steps are needed, if any, to responsibly oversee 
hydraulic fracturing operations. Thank you again, and I look 
forward to your testimony. And I yield back.
    Mr. Gibbs. Thank you. Mr. Altmire, you have an opening 
statement?
    Mr. Altmire. Thank you, Mr. Chairman. I come from 
Pennsylvania, in a State and a region of the country where this 
is an incredibly important issue. This is the issue I, by far, 
hear more about when I travel around than any other issue. It 
is a limitless opportunity, economically, and--in creating jobs 
for Pennsylvania. And I am very grateful for our EPA 
representatives who are here to discuss this issue, because I 
know it is important to you, as well. And we have Secretary 
Krancer, and everyone else who is here.
    I am most interested in learning about the unique geography 
that Pennsylvania has. As a Democrat, I think that Governor 
Corbett in Pennsylvania has done a very good job in managing 
the balance that needs to be struck in making sure that we take 
advantage, economically, from a jobs perspective, of this very 
unique circumstance that we have in Pennsylvania, and balancing 
it to make sure that we do it in as clean and safe a way as 
possible.
    So, what I would like to learn today from all of our 
witnesses--but especially our EPA witnesses--what can we do 
better? What would be your vision, moving forward, and in 
particular the unique geography of Pennsylvania in dispensing 
of the fracking fluid and the waste water?
    And I believe--and I have been very public about this--I 
think the State is in a much better position to make those 
decisions on the regulatory environment, and how we meet those 
unique challenges, based upon the circumstances that are unique 
to Pennsylvania, as a State, compared to any other State.
    So, I am here to listen and to learn and to participate. 
And I again want to just reiterate, Mr. Chairman, this is a 
very important issue to the district I represent, and to the 
State where I come from. And I am grateful that we are holding 
this hearing today.
    Mr. Gibbs. Thank you. Mr. Harris?
    Dr. Harris. Thank you very much, Mr. Chairman. And I want 
to thank you for holding this hearing. As you know, we have 
held hearings on this subject in my subcommittee, Energy and 
Environment Subcommittee in science and technology. In fact, 
tomorrow afternoon we will hold another one about some of the 
underlying science on the studies involved.
    The context in which we have to discuss this is, you know, 
making perfect the enemy of good. And we have a 9 percent 
unemployment rate in the United States. You know, to say that 
there is a public health implication of the possibility of 
contaminating water with hydrofracturing fluid--although in 
testimony in front of my subcommittee, or in my committee, 
science and technology, you know, I asked the panelists very 
simply, as I will ask the panelists today: Does anyone know of 
any documented circumstance of hydrofracturing contaminating 
drinking water? So all of you, that is a heads-up, you are 
going to get the question. Because I couldn't get an answer. 
The answer I got was no on the last panel I asked that 
question.
    Now, we know that with a 9 percent unemployment rate there 
are public health implications of that. We know, because we 
can't fund adequate health care in this country. We know part 
of it is the economic situation we are in, and we know we have 
got to get out of that situation. One of the keys clearly are 
using the energy resources of this country to get out of the 
economic situation we are in--9 percent unemployment, $3.50 a 
gallon of gas--all of which compounds the problems.
    Now, if you look at the growth of the natural gas resource 
reserves in the United States in the last 10 years, it is 
striking. Exponential growth in reserves, mostly due to the 
discovery of the reserves that exist within the shale 
formations.
    Now, they are not easy to get to. We have some under the 
western part of my State. So I went out and wanted to visit one 
of the locations where they are exploring and producing. 
Unfortunately, I couldn't go in my own State. I had to go to 
the State of Pennsylvania because in my State they have decided 
to have a moratorium. Fortunately for Pennsylvania, they 
haven't, because when you visit those areas of the State, they 
are boom towns. They are what the entire United States could be 
if the administration had a reasonable economically based 
policy with regards to using our natural reserves to get us out 
of the economic mess we are in.
    Now, I wish I shared the ranking member's enthusiasm that 
this is only a matter of not whether we are going to ever use 
these resources, but how. And if they want--if anybody wants 
any better proof of how important that question is, it is 
called Keystone Excel. Because the question up until a week ago 
was, well, you know, it is not whether it is every going to be 
built, but how and where. Now it is a question, actually, of 
whether it ever will need to be built, because Canada is going 
to go ahead and build a pipeline to their port terminals and 
ship that natural resource to Asia, instead of the United 
States, where we desperately need low-priced, petroleum-based 
energy to fuel an economic recovery.
    The question with Keystone Excel might be now not even a 
question of whether. And that is the problem, that we don't 
exist in a global vacuum with regards to energy. And if we 
don't make use, and we don't do everything we can to facilitate 
the access to these--to this shale formation natural gas, it 
may be an opportunity we may never get again.
    So, sure, we want to have clean drinking water. But I 
actually stood on a property in western Pennsylvania where this 
drilling and exploration is going on, and it is on a reservoir 
property where through the trees you see the drinking water of 
the local community. Now you got to tell me that nobody, nobody 
sitting inside a bureaucratic white tower, ivory tower in 
Washington, DC, with EPA on the door, is going to have any more 
concern for the drinking water in that community than someone 
who drinks the water in that community.
    And that is what this hearing is going to be all about. It 
is going to be about who best knows about how to protect the 
local drinking water. I got to tell you, I don't come down on 
the person sitting in Washington making a decision for western 
Maryland, or western Pennsylvania, or eastern or western any 
State in this country. And that is what it is about.
    So I am going to be asking, you know, the EPA 
representative, you know, how are they going to make sure that 
when they come up with this study or these guidelines, that 
they don't do that?
    So, Mr. Chairman, I thank you very much for holding the 
hearing. It is an incredibly important subject for this 
country, and I look forward to what the panel has to say. Yield 
back.
    Mr. Gibbs. Thank you. Representative Napolitano, opening 
statement?
    Mrs. Napolitano. Thank you, Mr. Chair. And I have--I am 
grateful for the hearing, because it is an issue that I have 
been involved with for not quite 13 years that I have been in 
Congress, but a good part of that.
    As ranking member of the Natural Resources Water and Power 
Subcommittee, we have had numerous hearings that deal with the 
contamination of the ponds, the pools of water left by those 
that do hydrofracking, and then expect the citizens, the 
taxpayers, to clean them up. And while it may not be 
contaminated for a whole area, it is possible that the leaching 
could go into the aquifers and contaminate the drinking water 
of these communities.
    We must continue to investigate the impact that it has on 
our water supply, and especially our ecosystem. The pools that 
are left behind may contain corrosive salts, benzine, 
radioactive elements. And unfortunately, the sewage plants 
sometimes may take some of that residue, that leftover waste 
water, may not be able to deal with the chemicals that are 
present in those waste waters. And then they contaminate that 
water that is being produced as secondary, whether it is 
tertiary-treated water, et cetera.
    So, in the many years that I have worked on this issue, I 
have great questions about whether it may not directly 
contaminate the aquifers, but it certainly is a process that is 
being questioned.
    And let's not forget that ground water is the most vital 
resource for all our water agencies that provide this gold. 
Water is now gold for business, for agriculture and especially 
for the communities that bank on us, EPA, putting the 
regulations that are going to provide them with clean, potable 
water.
    So it is really a vital thing for my area, for my State. We 
have a superfund site list that has been--and cleanup--because 
of contaminations. At least 20 years, and it has got another 
maybe 10 or 15 to go. It is the biggest superfund cleanup in--
well, in California, probably the United States. So I have a 
great issue on not being able to have the EPA and the States 
have the ability to deal with their own contamination, and how 
they can go after the PRPs, the potential responsible parties.
    So, with that, I look forward to hearing from the witnesses 
on this topic, and I thank the chair and the ranking member.
    Mr. Gibbs. Representative Shuster, you have an opening 
statement?
    Mr. Shuster. Yes, I do. Thank you, Mr. Chairman. Thank you 
for holding this hearing. And also, thank you to the witnesses 
for being here today.
    I would like to associate my remarks and--with the remarks 
of the gentleman from Pennsylvania, Mr. Altmire, for two 
reasons. One, because I agree with everything he said, and 
second, to demonstrate what bipartisan support that this 
development of shale gas in Pennsylvania has in the United 
States Congress. And we worked across the aisle, I worked with 
Secretary Krancer and others in the State of Pennsylvania to 
fight the Federal Government, to fight the EPA and the Corps of 
Engineers from expanding into Pennsylvania and taking over some 
of the functions that the Pennsylvania Department of 
Environmental Protection has done for decades, and has done it 
successfully, in protecting the environment, in protecting the 
drinking water of Pennsylvanians.
    And as Mr. Harris pointed out, I don't believe somebody 
sitting in Washington, DC, is more--is better equipped or more 
dedicated than the folks at Pennsylvania Department of 
Environmental Protection, or our local elected officials in 
protecting the water of our citizens.
    Marcellus shale is a tremendous opportunity, not only for 
Pennsylvania to create employment and to regain our stature in 
the States as one of the economic powerhouses in the United 
States, but it is also important for America, for us to reduce 
our dependence on foreign oil, which we every year, to the tune 
of over $100 billion, we are sending to countries that, quite 
frankly, hate us. So it is extremely important.
    Now, I have heard the President talk about expanding our 
energy, using natural gas. But his rhetoric doesn't support his 
actions. And just as the Keystone Pipeline is a perfect example 
of that, here we have a great opportunity to get oil from a 
great ally, our neighbor, Canada, and we have pushed it off for 
another year, and there is questions as to if it will ever be 
built in this--to support the United States and our needs for 
energy.
    Again, the President's actions don't support. He talks 
about improving the environment for businesses and reducing 
regulations, but yet one of his agencies--whether it is the 
Corps of Engineers or the EPA--they turn around and are 
expanding their efforts and their regulatory reach into places 
like Pennsylvania.
    And the word that is out there--my good friend from New 
York, he talks about caution. It is not caution that is out 
there, it is hysteria. Leading newspapers in America are 
putting out false information, or misinformation out there. The 
documentary--so-called documentary--``Gasland,'' was filled 
with misinformation. And yet the extreme left in this country, 
and Hollywood, celebrated it. And again, when you go through 
it, there is not much truth to it. And we hear this 
misinformation, this hysteria, going on all around the country.
    As I said, I have now joined with my colleagues across the 
aisle here in Congress, in the Pennsylvania delegation, to 
fight the Corps of Engineers, for instance, that is reaching 
out there to try to take in the permitting of pipes over small 
streams. The department of environmental protection in 
Pennsylvania has done it for 40 years, and done it quite 
successfully. Yet the Corps of Engineers is now reaching out 
there, trying to take on this responsibility. I believe they 
are doing it because some bureaucrat sitting in the Corps of 
Engineers figures this is how they can justify their existence 
for the next 40 years, because of the huge potential for 
Marcellus shale in Pennsylvania and for the country.
    So, we are fighting that on a daily, weekly basis, joining 
with our great secretary of the department of environmental 
protection, Mr. Krancer, Secretary Krancer, to slow that down 
and to turn that around so that Pennsylvania can decide how 
best to regulate its emerging gas industry.
    So I appreciate the hearing today. I think this is going to 
be a very interesting and maybe somewhat lively discussion here 
today, but I look forward to hearing from all the witnesses. 
And again, Mr. Chairman, thank you for holding this. I yield 
back.
    Mr. Gibbs. Mr. Bucshon, you have an opening statement?
    Dr. Bucshon. Thank you, Mr. Chairman. I would initially 
like to comment on and thank the chairman for holding this 
hearing. And the question was brought up: Why hold this hearing 
today, when we may not see anything from EPA until 2014? Well, 
let me go over briefly the history of the EPA under this 
administration, as it relates to fossil fuel.
    Coal dust regulation through mine safety, and EPA put into 
place for ideological reasons with no science backing it up--I 
am a thoracic surgeon, and I can tell you there was no science 
behind that. Coal ash regulation now, which would cost billions 
and billions of dollars in cleanup and also job loss across 
this country. Again, coal ash twice previously declared non-
hazardous material by the EPA in previous administrations.
    Boiler emission requirements that would require billions of 
dollars of changes. In fact, there will be coal power plants in 
my district--specifically in Terre Haute, Indiana--that will 
have to close, costing us hundreds of jobs, and potentially 
risking not only just the cost of energy in Indiana, but 
whether or not there is energy out there in the grid to supply 
the demand.
    And then, most recently, of course, the administration's 
bowing to environmental groups that both the President and Ms. 
Jackson apparently agree with, stopping the Keystone Pipeline, 
which multiple people agree has been proven and studies have 
shown to be environmentally safe, not only jeopardizing this 
country's future for energy independence, but also our 
relationship with Canada, and resulting in Canada's selling its 
oil to China, rather than to the United States.
    And finally, why hold this hearing based on what the EPA 
might do? Well, because we are seeing taxpayer dollars 
directed, for ideological reasons, to corporations like 
Solyndra, even in the face of multiple people telling the 
administration that this company was financially unstable.
    So, Mr. Chairman, I think it is a very, very timely 
hearing. We need to get ahead of these problems.
    And lastly, I would like to say what the States are doing 
on this issue, as it relates to clean water and clean air. In 
Indiana, the percentage of Hoosiers that live in counties that 
meet the Federal and State air quality standards are 99.99 
percent. The percent of Hoosiers that receive water from 
facilities in full compliance with safe drinking water 
standards Federal and State, 98.46 percent.
    And we heard at previous hearings in this committee from 
State EPA directors, saying that they are having a very 
difficult time dealing with the EPA under this administration. 
So the hearing should be held. I believe that the States should 
be heard on this. I think the States are doing a good job. I 
agree with Mr. Shuster. And I have significant concerns about 
the U.S. Federal Government getting involved in a situation 
that it appears that the States are adequately handling.
    I do think it is about ideology, not science. And I am 
looking forward to all the testimony today. Thank you. I yield 
back.
    Mr. Gibbs. Mr. Lankford, you have an opening statement? And 
feel free, after your opening statement, to make an 
introduction.
    Mr. Lankford. Thank you. Thank you, Mr. Chairman. Thank you 
for holding this hearing, as well. I do think this is a very 
important conversation to have.
    We've talked for decades about a national energy policy. In 
the 1970s, the Federal Government warned that we were running 
out of natural gas, and encouraged States and power generation 
to be done with coal or with nuclear. As a response to that, 
many of our energy production companies switched over from 
natural gas, because we were running out. Now we see our 
country is awash with natural gas. The supply has dramatically 
increased, the prices have dropped, and great-paying jobs are 
popping up all over the Nation dealing with energy production.
    Today's hearing focuses on the water relationship to that. 
Now, to be clear, water is used in dramatic quantities in 
almost every form of energy production. There is a direct 
relationship between water and energy production, as there is 
with hydraulic fracking and natural gas exploration. But to be 
clear as well, 99 percent of what is used for hydraulic 
fracking is water and sand. One percent or less is actually the 
additional chemicals that are added in the treatment process.
    So, when we talk about all these chemicals being pumped 
into the ground, we need to keep the perspective together on 
it. Ninety-nine percent is just water and sand.
    Water is a significant issue, though, for all involved. It 
is significant in both the energy production, and it is 
significant to people that live around that area, to the 
industries there, the residents. It is significant because many 
of the drilling locations are very remote. And so it is 
significant to the industry itself. And getting that much water 
to that spot, it uses about the same amount of water as an 
Olympic-sized swimming pool, so it is a significant amount of 
water involved in a frack job. So they have to be able to have 
that amount of water there. And so storing it is significant.
    State and local leadership, and their elected leadership 
and oversight and regulators, it is very significant to them, 
as well.
    But our economy is built on inexpensive energy. Every 
sector is dependent on the fact that we can keep the price of 
energy down, whether that be food production, whether that be 
housing, whatever it may be. So this is important, that we 
don't mess this up, that we don't do what we did in the 1970s 
and tell the Nation we are running out of it and we can't use 
it, let's shift to coal, and then 40 years later say, ``Oops.'' 
So we better get this right.
    Energy production is also a big deal for all of us in the 
economy in just basic great-paying jobs. Many, many, many high-
paying jobs are around the energy segment. There are a lot of 
other service-related jobs--hotels, food service, 
manufacturing--that is around hydraulic fracking, as well.
    If you come to Oklahoma City, you are going to find in 
Oklahoma City we have the lowest unemployment rate of any 
metropolitan area in the Nation. Number one lowest unemployment 
rate. We have great companies that serve our community, that 
are very involved, and are very responsible. We are a great 
example of a community that knows exactly what hydraulic 
fracking looks like, has functioned with it for decades, has 
managed it well, and has reaped the benefits of that.
    And so it is an interesting thing for us to be able to 
watch all the different studies that are currently happening on 
hydraulic fracking and to ask the question--we would invite you 
to come to Oklahoma. We have done hydraulic fracking in 
Oklahoma over 100,000 times, and we would invite you to come 
drink our water, breathe our air, and see our beautiful land. 
It is a great place to be, and it is a great place to live.
    We understand exactly what fracking--what it looks like, 
how it occurs, and how to regulate it. A great example of that 
is corporation commissioner Dana Murphy that is here, is one of 
the great regulators in the Nation. She regulates this 
industry, and is tenacious about it. You can have great 
regulation and great cooperation, and still high employment in 
the Nation and great low prices, as well, in your energy.
    So, I do look forward to this conversation. I am interested 
to see all of the interchange and the decisions that come out 
of this, as well. But I do want to say this. When we deal with 
a national regulation of fracking, we should be clear. No two 
areas of our beautiful dirt across our Nation are the same. 
Geography matters. And a one-size-fits-all approach to what 
happens underground, how deep and what that dirt looks like 
underground, will not work.
    The closer you can get to the actual frack site, and the 
people that are used to that land and those rock formations, 
the better you are going to be in being able to understand 
exactly how to be able to regulate that. So, whatever comes out 
of this, I would encourage we get regulations and regulators as 
close to the well site as possible, so that they are familiar 
with what happens around that.
    And with that, I welcome Commissioner Murphy to this panel. 
I look forward to your comments, as well as the comments of the 
others, and I yield back the balance of my time.
    Mr. Gibbs. Thank you. It is time we introduced our 
panelists. We have Mr. Hanlon, he is the director of the Office 
of Wastewater Management for the United States Environmental 
Protection Agency.
    Accompanying him is Ms. Dougherty, who is the director of 
the Office of Ground Water and Drinking Water of the U.S. EPA. 
Mr. Hanlon will be doing the testifying, and I think you are 
there to help if it comes up to answering additional questions, 
especially in regard to the Safe Drinking Water Act, where--
that falls on the jurisdiction of the Energy and Commerce 
Committee--welcome.
    Also we just introduced Chair Murphy, from Oklahoma. And I 
am going to call Representative Shuster for any comments for 
the next introduction.
    Mr. Shuster. Well, thank you, Mr. Chairman. And it is a 
great pleasure for us to have here today, I believe, Secretary 
Krancer. And I think it is important that I point out that he 
is a political appointee, but he is not just a political 
appointee. He is someone with tremendous background in 
environmental law.
    Before becoming Secretary Krancer he was Judge Krancer, and 
he was on the Pennsylvania environmental hearing board, who 
heard cases that--about people that were dealing with the DEP 
across Pennsylvania. He was--been on the board for several 
years. He was not only on that board as a judge, but he was the 
chief judge and chairman.
    Prior to that, he was a law partner in Blank and Rome, and 
handled environmental litigation. So tremendous experience 
there, in the courtroom. And then, after that, he became the 
assistant general counsel to Exelon Corporation, dealing with 
complex environmental, safety compliance, and litigation for 
Exelon, which is one of our major nuclear producers in this 
country, as well as other types of power.
    So, we have a real true expert here today, DEP, and I look 
forward to hearing from him and continue working with him, 
because I think it is well known in Pennsylvania that he is not 
only well-equipped and will protect the citizens of 
Pennsylvania and their drinking water, but if there is any bad 
actors that come into Pennsylvania, they can fear that 
Secretary Krancer will not tolerate bad actions in 
Pennsylvania. So I am proud that he is here with us today, and 
proud that he is our secretary of department of environmental 
protection. And I yield back.
    Mr. Gibbs. Thank you. It is appropriate for me to introduce 
Mr. Stewart from Ohio. He is president of the Ohio Oil and Gas 
Association. And I have known Mr. Stewart for a number of 
years.
    And I just want to give him kudos for what happened while I 
was in the State Senate about 3 years ago. The industry came to 
the legislature and asked to reform regulatory laws regarding 
oil and gas production, and volunteered to pay more fees to 
bring on more regulators, because they were concerned that the 
regulations in place weren't adequate to protect the 
environment. And Mr. Stewart led the issue there, and as a 
result, Ohio has one of the foremost standards to protect the 
environment in oil and gas exploration.
    So again, welcome, Tom. Good to see you here.
    We also have Ms. Groome. She is from the Pretreatment and 
Pollution Prevention Committee of the National Association of 
Clean Water Agencies. She is the vice chair. Welcome.
    At this time, Mr. Hanlon, the floor is yours. I was reading 
through your testimonies, everybody's testimonies, and they are 
very good. But try to keep them within 5 minutes or so; we have 
more time for Q&A. Welcome.

    TESTIMONY OF JIM HANLON, DIRECTOR, OFFICE OF WASTEWATER 
  MANAGEMENT, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY, 
 ACCOMPANIED BY CYNTHIA DOUGHERTY, DIRECTOR, OFFICE OF GROUND 
     WATER AND DRINKING WATER, UNITED STATES ENVIRONMENTAL 
PROTECTION AGENCY; DANA L. MURPHY, CHAIR, OKLAHOMA CORPORATION 
  COMMISSION; MICHAEL L. KRANCER, SECRETARY, COMMONWEALTH OF 
PENNSYLVANIA, DEPARTMENT OF ENVIRONMENTAL PROTECTION; THOMAS E. 
      STEWART, EXECUTIVE VICE PRESIDENT, OHIO OIL AND GAS 
 ASSOCIATION; AND MARTIE GROOME, VICE CHAIR, PRETREATMENT AND 
 POLLUTION PREVENTION COMMITTEE, NATIONAL ASSOCIATION OF CLEAN 
                     WATER AGENCIES (NACWA)

    Mr. Hanlon. Good morning, Mr. Chairman and members of the 
committee. I thank you for the opportunity to share information 
on EPA's role in ensuring that public health and the 
environment are protected during natural gas extraction and 
production activities.
    EPA strongly believes that domestic natural gas production 
is critical to our Nation's energy future. The natural gas 
resulting from well-designed and managed extraction from shale 
formations has the potential to improve air quality, reduce 
greenhouse gas emissions, stabilize energy prices, and provide 
greater certainty about future energy reserves. Advancements in 
technology have increased a number of economically accessible 
gas reserves in the U.S., which has, in turn, benefitted energy 
security and jobs.
    While this increase in activity and resources is 
beneficial, it is important that it be conducted in a way that 
ensures protection of drinking water supplies and surface water 
quality.
    I would like to discuss a few recent and upcoming actions 
by EPA related to shale gas extraction. EPA's current 
activities include development of treatment standards for waste 
water dischargers, a research study on the potential impacts of 
hydraulic fracturing on drinking water resources, guidance for 
permitting when diesel fuel is used in hydraulic fracturing, 
and guidance on water quality permitting and pretreatment.
    On October 20th of this year, EPA announced that it was 
beginning a rulemaking to set technology-based pretreatment 
standards to regulate discharges to publicly owned treatment 
works produced by natural gas extraction from underground shale 
formations. We will pursue this effort in coordination with our 
Federal partners, and with input from industry experts, States, 
and public health organizations.
    What we know is that shale gas extraction, in some 
instances, can generate large volumes of waste water, and that 
this waste water can potentially contain high concentrates of 
salts, radionuclides, heavy metals, and other materials that 
are potentially harmful to human health and the environment.
    EPA will be soliciting data and information on the types 
and characteristics of the pollutants in shale gas waste 
waters, the volumes and concentrations of pollutants, and 
instances of pass-through of pollutants, or upsets related to 
shale gas waste waters at publicly owned treatment works.
    EPA is also seeking information on documented impacts of 
these pollutants on aquatic life and human health.
    Finally, EPA plans to collect cost data on treatment 
technologies to determine the cost and affordability of these 
treatment options. EPA's current plan is to issue a proposed 
rule for shale gas waste water standards in 2014. EPA will 
propose regulations that are affordable. In the coming months 
EPA will carefully consider the impact of regulatory costs to 
the industry, and to subsets of stakeholders, such as small 
businesses and State and local governments. EPA will also 
consider potential impacts on jobs and local economies.
    At the request of Congress, EPA launched a research project 
last year to study the relationship between hydraulic 
fracturing and drinking water resources. The study plan was 
released on November 3rd of this year. The research will 
consider the entire life cycle of water use in hydraulic 
fracturing, and will look at five stages of water use, 
including water acquisition, the mixing of chemicals, injection 
at the well site, flow-back in produced water, and the disposal 
of waste water. EPA will release the first report on the study 
in 2012, which will include analysis of data, results of the 
modeling of potential impacts, and studies on the formation of 
disinfection byproducts, and an environmental justice 
assessment.
    Hydraulic fracturing flow-back can produce water disposal 
through underground injection or delivery to a publicly owned 
treatment works, or a centralized waste treatment facility--is 
regulated under the Safe Drinking Water Act or the Clean Water 
Act.
    EPA is currently working on guidance on permitting the use 
of diesel fuel in hydraulic fracturing, as well as guidance on 
water quality permitting and pretreatment. Those documents will 
provide technical information and recommendations for State and 
EPA permit-writers to consider, based on current statutes and 
regulations, but will not be binding requirements.
    In conclusion, EPA is committed to supporting the safe and 
responsible development of natural gas resources to create 
jobs, promote energy security, and reduce energy impacts 
associated with energy production and use. In so doing, we will 
use our authorities, consistent with the law and the best 
available science to protect communities across the Nation from 
potential impacts to water quality, human health, and the 
environment that may be associated with natural gas production 
activities. We will continue to coordinate our activities with 
our State, Federal, and local partners as we move forward.
    Thank you for the opportunity to testify today, and I look 
forward to any questions the panel may have.
    Mr. Gibbs. Ms. Murphy, the floor is yours. Welcome.
    Ms. Murphy. Thank you. It is a great pleasure to be here, 
representing my State, and also here on behalf of Congressman 
Lankford. I had let the panel know that in addition to being a 
statewide elected official, I serve with two other corporation 
commissioners. I am also a geologist. I have served as a former 
administrative law judge at the corporation commission. And I 
have also worked in oil and gas law for many, many years.
    So, as the holder of a statewide office and chair of the 
commission that actually regulates oil and gas drilling and 
development, I know too well the danger of regulation for 
regulation's sake. Any meaningful debate about regulation needs 
to be focused on what the regulation is intended to accomplish. 
Protection of water and the environment and the beneficial 
development of the Nation's resources of oil and gas are not 
mutually exclusive goals. Oklahoma is proof of that.
    My fundamental point today would be to encourage that the 
States are the appropriate bodies to regulate the oil and gas 
drilling industry. I am going to provide the basis for that, 
and also give several examples.
    I would also point out to the committee that just recently 
released is the National Petroleum Council study, ``Prudent 
Development--Realizing the Potential of North America's 
Abundant Natural Gas and Oil Resources,'' resulting from the 
efforts of over 400 participants, over half of which were non-
industry-related individuals. And here is the statement that 
actually comes from that recently released report: ``Regulation 
of oil and gas operations is best accomplished at the State 
level. A one-size-fits-all approach to regulation is not a 
viable option to ensure the highest level of safety and 
environmental protection.''
    Why are the States the appropriate bodies to actually 
regulate and work in conjunction with the Federal agencies? 
Because extensive knowledge of geological conditions, 
topography, the drought in my State this year, seasonal climate 
changes which vary State by State and actually within the 
States themselves. We have the most experience to ensure that 
wells are properly constructed, operations are conducted 
safely, and all with a minimal environmental footprint.
    Our State has base of treatable water maps, where the water 
tables are actually looked at, and the appropriate amount of 
surface casing is cemented and put in place. We are the ones 
that live in closest proximity to conduct the inspections, 
respond not just quickly but with the most appropriate response 
in any given situation, to oversee and enforce local 
regulations, and target new regulations to promote safety and 
environmental performance.
    The States are those best able to coordinate, cooperate, 
and share among each other evolving technologies and rules and 
regulations and standards that can best help all the producing 
States, especially since numerous companies are operating in 
multiple-State jurisdictions.
    State officials are directly accountable to residents of 
the State and the people of Oklahoma. They know the buck stops 
with us. It is important to us to keep focused on the mission 
of protecting our State's water, its land, and the health and 
safety of its citizens.
    A couple of the examples that I would point out--and I will 
start from a national level and go down to a smaller level. In 
2009, the National Association of Regulatory Utility 
Commissioners, utility commissioners comprised from all 50 
States with very divergent backgrounds, actually passed a 
resolution that called on the States to be the appropriate 
bodies for regulating oil and gas industry. Why would a group 
of utility regulators who do not regulate the oil and gas 
industry call upon the States to be the appropriate bodies? 
Because they know gas is important for direct heating and for 
power generation, and they know that the facts speak to the 
issue of State regulation.
    I would also point out, too, the Interstate Oil and Gas 
Compact Commission, which is headquartered and was started, 
actually, in Oklahoma, comprised of 30 member States and 8 
associate members, working in conjunction with the Ground Water 
Protection Council, who have created an Internet chemical 
registry ability called ``FracFocus,'' for companies to 
actually disclose the chemicals.
    I will note in Oklahoma this year, in our rulemaking, we 
are actually taking up adoption of FracFocus into our rules to 
mandate upon the companies. I would also note that in the 2 
years it has taken the EPA to put together their study on 
hydraulic fracturing, there are five States--Pennsylvania, 
Ohio, Louisiana, Colorado, Oklahoma, and most recently, 
Arkansas--that have submitted to the STRONGER review process 
comprised of environmentalists, State regulators, and the 
industry to review State regulations on hydraulic fracturing.
    The last point I would emphasize, we would not have reached 
this place among all the States if the map and the track had 
already been laid out. It is just as important for us to 
cooperate and collaborate together to deal with innovation.
    My closing statement would be the best thing that I feel 
like the Federal Government and the Federal agencies can do is 
encourage and facilitate the States to work together to come up 
with good rules and regulations for their appropriate States 
and across the regions.
    Thank you for this opportunity.
    Mr. Gibbs. Thank you.
    Secretary Krancer, the floor is yours. Welcome.
    Mr. Krancer. Yes. Thank you very much. Honor to be here. 
And thank you, Congressman Shuster, for having me here.
    I have been committed from the beginning to be governed by 
science and facts, not by fiction and emotion. And one of the 
important things to note is why we are here. Why we are here, 
as I understand it, partially because of the pretreatment regs.
    Why are they on the table? They are on the table--and this 
is an object lesson for all of us--because the State took a 
lead and the Feds followed. We have various facilities in our 
State that are--in a pretreatment program that are in a Federal 
program. They are not regulated by the State. We pointed this 
out to the Feds, because we are doing it right in Pennsylvania 
with our facilities. I think we are here partially because we 
gave them a cue.
    I was very shocked to hear Representative Bishop refer to 
my fellow State person John Quigley--who said we had no plan? I 
have to challenge that. I am not sure when John said that. It 
must have been early on, or either that or I am not sure John 
knows what was going on in his own building, because I was in 
the department of energy a couple of months ago in which my 
predecessor testified with great pride about the program and 
the plan that his administration started to put into place, and 
is in place, and we followed up on it.
    And that plan is very detailed. It involves regulations on 
total dissolved solids into waterways. So it is a total 
fiction. It is a total fiction that sewage treatment plants are 
discharging these terrible substances into the waterways. 
Certainly in Pennsylvania, that is a fiction. And we, as an 
administration, made a call on the drilling community to stop 
delivering waste water to those facilities that were 
grandfathered by the prior regulations, and that call was 
answered immediately. So, we have undergone a sea change in 
Pennsylvania to virtually no such discharges. So that is a 
fiction.
    I also heard a reference to the New York Times. And that 
had to make me chuckle a little bit. I came into office, and 
the New York Times was promulgating what I thought was--and I 
wasn't the only one, even my predecessor thought was--extremely 
irresponsible, fear-mongering type of journalism, journalism 
which, by the way, was censured by its own newspaper or its own 
editors. And I am not understanding why that fellow was still 
writing, or why people are still buying that newspaper. It is 
beyond me.
    But in any event, the sine qua non of it was about 3 weeks 
or 4 weeks after that fear-mongering article was written all 
about radiation and how we were supposed to be afraid, and this 
is horrible, and the sky is falling down, well, the department, 
pursuant to its normal testing procedures that it monitors, 
released data showing that radioactivity was at background 
levels. So all they had to do was make a phone call to us to 
figure out what was really going on, but they neglected to do 
that.
    In terms of water use--and I heard several folks talk about 
that--and the point is well taken. The water used for fracking 
in Pennsylvania, it ranks nine out of ninth. Here is the chart, 
it is in my testimony. And there is another chart that is 
important. I think Representative Lankford talked about this: 
99.51 percent of the water is--frack water--is water and sand. 
And this myth that somehow these terrible chemicals are getting 
into the ground water is completely myth. It is bogus.
    Let me read you an article, a snippet from a paper, 
Harrisburg Patriot, from an author who was no friend of our 
administration, frankly, and no friend of what we are doing all 
the time. He says, ``Industry representatives say the chemicals 
are the same as you would find under your kitchen sink, but 
[this gentleman] said, `You don't want to take the stuff from 
your kitchen sink and mix it in a glass of water you are going 
to drink, and that's basically what's going on.' '' The 
reporter says, ``But it's not.''
    And that is the point. It is not what is going on. Fracking 
occurs 8,000 feet beneath the surface. ground water in 
Pennsylvania--and that may vary between States, and that is an 
important point--is at several hundred feet. So the myth, the 
myth out there, is just rampant.
    I have to also agree with what Representative Altmire said. 
I think the unique geography is important. Pennsylvania is 
different. We are not Texas, we are not Oklahoma. We are very 
different. We know what our State is like. We know our unique 
geography. And I also certainly agree with him that Governor 
Corbett is doing a good job regulating the industry, and we 
are, as well.
    And I have to also agree with Representative Shuster. We 
have very high standards in Pennsylvania of conduct for the 
folks who do business here. My boss, the Governor, is a former 
attorney general and former United States prosecutor. I am a 
former judge. If you can't meet the standards in Pennsylvania, 
you are not welcome to be in Pennsylvania and do business here.
    So--and one other comment that struck me was a comment that 
one of the representatives was saying, that 99 percent of his 
constituency lives in areas of attainment. Well, I wish I could 
say that about Pennsylvania. But I will tell you one thing. If 
we can exploit and take this natural resource and use it, we 
will be in that position in Pennsylvania, because these are the 
ADCs of Marcellus shale. It is abundant, it is available, it is 
domestic, it is cheap, and it is clean.
    Right now, I am told by my friends at PECO that PECO is 
spending $300 million less per year for natural gas, and 
millions of dollars are being saved by consumers. Electricity 
prices are lower.
    I also heard a comment about the unemployment in the United 
States, 9 percent. Well, we in our State have certain counties 
that rank third and sixth in job growth in the entire country, 
of all countries. Williamsport, seventh largest growing city in 
the United States.
    And I see I am over time, and I apologize, and I will 
welcome questions when they come.
    Mr. Gibbs. Thank you, Mr. Secretary.
    Mr. Stewart, the floor is yours.
    Mr. Stewart. For over a century-and-a-half, Ohio has been 
blessed with production of plentiful oil and natural gas 
resources. At each critical point in our industry's history it 
has been changes wrought by technology that have provided 
producers the ability to explore new horizons and expand the 
resource base.
    Today, the ability to horizontally drill deep underground 
reservoir with exacting precision, exponentially exposing the 
face of the reservoir rock to the wellbore has created massive 
efficiencies in our ability to produce oil and gas. Ohio is now 
beginning a new era of oil and gas exploration made possible by 
technologies. It is unlocking reservoirs that, until now, were 
not accessible.
    For our entire history we explored for oil and gas in 
reservoirs where it had been trapped after migrating over the 
eons from source rocks where the oil and gas had been formed 
and cooked in nature's kitchen. Now, industry is drilling into 
the actual source rocks where most geologists believe 95 
percent of the oil and gas still remains in place, even after 
feeding the traps that have produced all the oil and gas that 
we have found to date. This is a radical departure of America's 
understanding of energy dependency, and resets the clock on 
available domestic oil and gas resources.
    Today the industry is providing natural gas priced at 22 
percent of its intrinsic energy value, a trend that the 
marketplace indicates will continue into the future. It is 
enticing the chemical industry to re-enter the United States 
and build new chemical manufacturing facilities, jump-starting 
job growth downstream of the wellhead.
    Since 1860, Ohio has produced 8.5 trillion cubic feet of 
natural gas, and 1.14 billion barrels of crude oil. The State's 
geologist recently provided a volumetric calculation to 
estimate the recoverable reserve potential of the Utica shale--
our shale opportunity. He reported that should producers 
extract 5 percent of the oil and gas in place, the Utica would 
generate 15.7 trillion cubic feet of natural gas, and 5.5 
billion barrels of crude oil. That is an astonishing number and 
an enormous, perhaps once-in-a-lifetime opportunity for Ohio.
    An economic impact study commissioned by the Ohio oil and 
gas energy education program determined that the Utica shale 
will lead to the creation of over 204,000 Ohio-based jobs over 
the next 5 years. Investments by oil and gas companies will 
reach $34 billion to fund development activity and 
infrastructure. Producing wells are projected to generate $1.6 
billion of royalty income to Ohio landowners.
    Perhaps most significantly, the Utica shale can make Ohio 
an exporter of energy. Coupled with the readily available and 
affordable energy resource, development of the Utica shale may 
be the most significant positive economic event to take place 
in Ohio for decades.
    Clearly, America's opportunity to use the shale gas and 
shale oil resources hinges on the regulatory structures that 
allow its development. Managing environmental risk has been a 
key part of both State and Federal regulation. It remains 
important to keep an appropriate balance between these 
Government roles. States have historically been the regulator 
of well construction and completion. They have the expertise to 
permit new wells, and should continue to be the regulatory 
authority.
    States and Federal agencies share the responsibilities of 
regulating waste discharges. States typically issue direct 
permits under broad Federal guidelines. This balance is 
appropriate, and should be continued, because States understand 
the potential unique issues of each area. Because of the 
diversity of conditions associated with oil and natural gas 
production, the regulatory process must be flexible, and 
reflect the unique conditions in a State or areas within a 
State. It requires the technical expertise that has been 
developed in each State, and which does not exist within EPA.
    For this reason, Federal law has generally deferred to the 
States for the regulation of this industry. The States have a 
process available to them to demonstrate effective regulatory 
ability, identify regulatory gaps, and find ways to close those 
gaps and improve the respective regulatory programs.
    The State Review of Oil and Natural Gas Environmental 
Regulations, STRONGER, is an independent stakeholder governing 
body that manages State review process. The overall process of 
the State review process is to help oil and gas regulatory 
programs improve. The key innovative aspect of the process are 
the teams made up of equal representation from the 
environmental community, State regulators, and industry come 
together to conduct an authentic peer review critique of the 
State's regulatory program, benchmarking the program against a 
national set of guidelines that itemize the critical elements 
necessary to protect the public interest and the environment.
    STRONGER recently updated the review guidelines to include 
a specific section focusing on hydraulic fracturing. Over the 
past year, STRONGER has done frack-specific reviews in six 
States. In Ohio, following implementation of new law, STRONGER 
conducted just such a survey that concluded that the Ohio 
program was overall well managed, professional, and meeting its 
program objectives. That provides the public interest faith and 
trust in the regulatory process.
    Both the Secretary of Energy's advisory board on shale gas 
production subcommittee, interim reports, and the recent 
national petroleum report on shale gas has specifically 
commended the State review process. The State review process 
demonstrates that the States are the best and most efficient 
point to regulate the industry's waste streams. The process 
provides for a system of constant and ongoing improvement, and 
an opportunity to share and promote new and unique regulatory 
concepts among the States, while maintaining the flexibility 
needed to meet individual States' needs.
    With the current intense focus on shale development, I 
would recommend to the subcommittee that we focus our efforts 
to support positive, collaborative efforts that work to 
efficiently improve programs that protect health, safety, and 
the environment, instead of relying on Federal control that 
will only work to stifle economic opportunity.
    Mr. Gibbs. Thank you, Mr. Stewart.
    Ms. Groome, the floor is yours. Welcome.
    Ms. Groome. Chairman Gibbs, Ranking Member Bishop, and 
members of the subcommittee, my name is Martie Groome, and I am 
the laboratory and industrial waste supervisor for the City of 
Greensboro Water Resources Department in North Carolina. It is 
a great privilege to be here to testify on how local clean 
water agencies implement the national pretreatment program, and 
how this program may affect the disposal of waste water from 
shale gas extraction.
    In addition to my duties at the city of Greensboro, I serve 
as the vice chair of the pretreatment and pollution prevention 
committee for the National Association of Clean Water Agencies. 
And it is my pleasure to be testifying on NACWA's behalf today.
    NACWA's primary mission is to advocate on behalf of the 
Nation's publicly owned waste water treatment works, and the 
communities and rate payers they serve. The employees of these 
agencies are true environmentalists, who ensure that the 
Nation's waters are clean and safe, meeting the strict 
requirements of the Clean Water Act.
    The national pretreatment program is often recognized as 
one of the most successful Clean Water Act programs for its 
role in reducing the amount of pollutants discharged into sewer 
systems and into the Nation's waters. Since 1983, the national 
pretreatment program has placed public utilities in the realm 
of local regulator for the industries that discharge waste 
water to their sewer systems. It is the local waste water 
utilities that are responsible for enforcing both national 
pretreatment standards and any additional limits developed at 
the local level needed to protect POTW operations and local 
water quality.
    To prevent potentially harmful pass-through of pollutants 
to the environment or interference with the waste water 
treatment process, the Clean Water Act requires EPA to 
establish national pretreatment standards for industrial and 
commercial facilities that discharge waste water to the sewer 
system. Pretreatment standards are currently in place for more 
than 50 industrial categories, and POTWs regulate over 20,000 
significant industrial users.
    Industries with unique waste water treatment needs and 
challenges have arisen consistently since the passage of the 
Clean Water Act. And clean water agencies have maintained a 
strong record of addressing these new challenges. While NACWA 
does not have a position on fracking, per se, the fracking 
industry is merely another industry similar to the others 
before it. And POTWs will act as public servants in 
appropriately addressing the discharges from this industry.
    Even in the absence of national pretreatment standards, 
POTWs can tailor local limits to the particular needs of the 
POTW and the industrial user. With local limits, POTWs may 
regulate discharges from any industrial or commercial 
facilities, not just the categorically regulated by national 
pretreatment standards.
    The pretreatment program has been so successful because it 
gives local POTWs the authority to control the pollutants in 
waste water from any industry, using both national pretreatment 
standards and local limits. National pretreatment standards 
have the benefit of leveling the nationwide playing field for 
discharges to sewer systems. However, national pretreatment 
standards can at times be stricter than is necessary to protect 
a particular POTW, and the waters they discharge into. 
Implementing national pretreatment standards also requires a 
significant commitment of resources by the local POTW. Any 
national pretreatment standards for the fracking industry 
should be carefully developed and implemented to avoid 
unnecessary cost to the public clean water agency and its 
industrial customers.
    It is NACWA's hope that EPA's pretreatment standard will 
yield a scientifically and economically sound set of standards. 
It is equally critical that the public understand that any 
POTWs that accept fracking waste water during this interim 
phase must meet their permit requirements and set local limits 
for the industrial user, if necessary. In many cases, local 
POTWs have effectively regulated industries for years before a 
national pretreatment standard was developed by EPA.
    If a POTW does not have the capacity to establish such 
local standards, or fails to develop the necessary limits or 
controls to prevent pass-through or pollutants of treatment 
plant--or treatment plant interference, then the POTW should 
not accept this waste. EPA's announcement that it will develop 
a national pretreatment standard for the shale gas extraction 
industry does not prevent POTWs from accepting hydraulic 
fracturing waste water now, after working with their State 
permitting authority to ensure the protectiveness of this 
practice.
    POTWs also have the authority to stop taking an industry's 
waste water immediately if it causes any problems with the 
waste water treatment process. Discharge to a POTW is only one 
of several options for the shale gas extraction industry. If a 
national pretreatment standard can ensure that such discharges 
to a POTW are safe, it may be a more commonly used option.
    NACWA does not have a position regarding the use of 
fracking to meet the Nation's growing energy needs. A 
scientifically and economically sound national pretreatment 
standard for the shale gas extraction industry may provide 
protection to both the industry and to POTWs. It would provide 
a nationally acceptable baseline for treatment of hydraulic 
fracturing waste water.
    NACWA intends to work with EPA as the Agency studies the 
industry and develops a pretreatment standard that is 
protective and not unnecessarily burdensome.
    Thank you for this opportunity to appear before you today. 
And I look forward to any questions the subcommittee may have 
for me.
    Mr. Gibbs. Thank you. I will start some of the questions 
off.
    Chair Murphy, I see your testimony. You state that there is 
over 100,000 oil and gas wells in the State of Oklahoma, and at 
least 95,000 of them have been fracked. Is there--was there any 
incidents where the fracking caused the problem, or well 
construction was the problem? Can you elaborate on what is 
happening in your experience in Oklahoma?
    Ms. Murphy. Yes. By way of background, I would actually 
just say there have been over 500,000 wells actually drilled in 
Oklahoma. About 185,000 wells are actually producing oil and 
gas, and we have about 10,000 disposal wells. We treat our 
water and handle waters differently than some of the other 
States.
    But there have been no documented instances of the 
occurrence of pollution to the waters that you spoke about.
    Mr. Gibbs. For neither poor well construction nor fracking?
    Ms. Murphy. No.
    Mr. Gibbs. OK. Secretary Krancer, I believe there is a 
little over 3,500 Marcellus shale wells in Pennsylvania, which 
obviously are all fracked. What is your record?
    Mr. Krancer. We have about 4,000, you are right.
    Fracking has never caused ground water contamination in 
Pennsylvania. Actually, Lisa Jackson was in front of the House 
Committee on Oversight and Government Reform on May 24th and 
said the exact same thing. Fracking simply doesn't do that. And 
there is still not a documented case.
    Mr. Gibbs. Mr. Stewart, what is your experience in Ohio?
    Mr. Stewart. There has been over 80,000 wells that have 
been hydraulically fractured in the State of Ohio since 1952. 
Nearly every well drilled in the State of Ohio is hydraulically 
fractured. Before the resources committee of the Congress 2 
years ago our State regulator testified that in his 25 years of 
investigating ground water contamination, he has not once 
correlated hydraulic fracturing to ground water contamination.
    Mr. Gibbs. Thank you. Mr. Hanlon, what is the EPA's thought 
on implementing the Clean Water Act, working with State EPAs? 
How do you view your role, as the U.S. EPA under the authority 
of the Clean Water Act?
    Mr. Hanlon. Under the authority of the Clean Water Act, EPA 
has entered into contracts, basically, to authorize 46 States 
to implement the point source clean water permitting program. 
And basically, in those States, we expect the States to do a 
good job. They issue permits, they review the permits, they do 
inspections, they do compliance, they do enforcement where it 
is necessary.
    On an exception basis, EPA sort of does oversight for those 
programs. Basically, we go in, we take a look at State permits, 
we do quality reviews. We will do site visits on occasion. And 
across the board, the States do a good job. That is our role in 
the authorized States.
    There are four unauthorized States where EPA holds the 
pencil. We actually write the permits in those States, and then 
we implement the whole program, in terms of permitting, 
compliance, and enforcement.
    Mr. Gibbs. What would be your role? Would you expect to put 
out guidances to the States? My understanding on the point 
source pollution, the 46 States that are participating, they 
have a 3-year plan, and the U.S. EPA approves that. Is that 
correct?
    Mr. Hanlon. In the authorized States, in order to sort of 
gain authorization, it is a fairly lengthy process. We recently 
completed it in Alaska 3 years ago. And basically, the State 
has to demonstrate it has the legal authorities, it has the set 
of implementation authorities, in terms of regulations, you 
know, review procedures and protocols, and a trained staff to 
actually deliver the program.
    And so, once they do that, basically the State then takes 
over the----
    Mr. Gibbs. So do you feel, then, the States are equipped 
and are capable to protect the environment? We are talking 
about the shale development, the fracturing. Do you have 
confidence in the States to have the ability to do it?
    Mr. Hanlon. We have the authority--we have the expectation 
that every State does a good job in implementing and----
    Mr. Gibbs. And clearly the record has shown that? Because 
fracking has been going on for about 60 years, correct?
    Mr. Hanlon. With fracking, I think the, you know, testimony 
this morning and our experience has been--certainly in 
Oklahoma, Texas, et cetera--there are hundreds of thousands of 
wells that have been drilled. And the experience there has been 
that essentially all of the produced water has been re-
injected. Basically, it never sort of finds the surface water. 
And that has been a long-time successful experience that we 
have had in our region six offices down in Dallas.
    I think the recent concern over the last 2 or 3 years is 
that, as the Marcellus formation has begun to be explored and 
the resource used, that it is a part of the country where 
there--you know, it has not been as much experience, certainly 
in shale gas exploration, and basically the availability of re-
injection sites is not the same as the availability of re-
injection sites in Oklahoma and Texas.
    So, I think both EPA and the States have been on a learning 
curve over the last several years, in terms of, OK----
    Mr. Gibbs. Well, my time is----
    Mr. Hanlon [continuing]. My drill is--now that we got the 
gas out, what do we do with produced water?
    Mr. Gibbs. My time is up. I just--one quick question. Do 
you believe that the States are setting the standards and the 
guidelines to manage it right, or do you think guidelines 
coming out of Washington, DC, one size fits all, would be--is 
the way to go?
    Mr. Hanlon. If you are referring to the guideline for 
pretreatment standards, basically that will affect waste water 
from shale gas production that will go either to a waste water 
treatment plant or to a centralized waste treatment facility. 
As things stand today, as I understand it, Ohio bans that. 
Basically, it says----
    Mr. Gibbs. Yes, that is correct.
    Mr. Hanlon [continuing]. ``You can't send that to a POTW.'' 
Pennsylvania had suggested or encouraged that their POTWs not 
do that. And so, if you are a truck driver, and have 5,000 
gallons of shale gas water in southwestern Pennsylvania, in an 
hour you can get to West Virginia, you can get to Ohio, you can 
get to Pennsylvania.
    The objective of the guideline is to say that, for the 
pretreatment standards, that 5,000 gallons will have the same 
expectation when they show up at a small POTW, knock on the 
door and say, ``I got 5,000 gallons of salty water. And here is 
a check will you take it.'' And basically, it will provide that 
operator with assurety in terms of what that--the quality of 
that water is.
    Mr. Gibbs. OK, thank you. Mr. Bishop.
    Mr. Bishop. Thank you very much. And to all the panel, 
thank you very much for your testimony.
    Secretary Krancer, in your testimony you say that the 
current preference for fracking waste water disposal is through 
existing waste water treatment plants, but you also indicate 
that the plants do not have the technology necessary to remove 
fracking pollutants like total dissolved solids.
    You then go on to say that Pennsylvania's new chapter 95 
regulations, which were adopted last year, are intended to 
completely address the cumulative impacts of waste water 
discharges. And you also note quite proudly--and I would say 
just justifiably so--that they are the first of their kind in 
the country. And you indicated in your comments that you see 
this hearing in some ways as a response to the leadership that 
Pennsylvania has demonstrated. And you seem to take pride in 
that, and I would encourage you to do so. I think that that is 
something you should be proud of.
    But my question is, in light of Pennsylvania's leadership, 
do you not see Pennsylvania as a model for the rest of the 
country? And do you not see the legitimacy of a minimum 
national standard that would emulate Pennsylvania's, or perhaps 
be less stringent than Pennsylvania's, but at least be a 
minimum standard, and that in accordance with how we handle 
other Clean Water Act regulations, Federal Government 
establishes a minimum standard, States are then free to exceed 
those standards?
    Mr. Krancer. Well, let me answer that this way. 
Pennsylvania is a role model, and it is a model, and we have 
had visitors from foreign countries come to see us, and we do 
have the new chapter 95 regulations, total dissolved solids, 
which does address the issue of those plants that formerly 
could not treat the water appropriately. Now they can, now they 
are required to.
    And as I said, there was a grandfather clause. We closed 
that when we came into office, by issuing our call. And now, as 
I have testified----
    Mr. Bishop. If I may, all of that sounds to me to be 
perfectly reasonable and laudable. My question is, why would 
you not want your neighboring States to have the same concern 
that Pennsylvania has made so clear?
    Mr. Krancer. Well, I think that is a red herring. Quite 
honestly, the question here is whether the States are capable 
and whether the States can do a good job. The answer has been 
yes--I heard that from the EPA here today--I have heard that 
from EPA's----
    Mr. Bishop. If--again, if that is true, then what is wrong 
with a minimum national standard?
    Mr. Krancer. Well, because not every State does it, number 
one. Not every State does it the same way, number two. Number 
three----
    Mr. Bishop. If I----
    Mr. Krancer [continuing]. Not every State has the same 
geography. Number four--should I go on?
    It is also a matter of philosophy. Should we have the 
Federal Government establishing--and what would happen would be 
lowest common denominator, that would be the case----
    Mr. Bishop. Well, don't we have lowest common denominator 
right now, if a truck can drive around until it finds a State 
that is going to take the water?
    Mr. Krancer. Well, again, I think you are posing a red 
herring here. You can't do that in Pennsylvania, you can't do 
that in Ohio. Both States are on top of what they are doing. 
Oklahoma is on top of what it is doing. Louisiana is on top----
    Mr. Bishop. But you seem to be questioning the fundamental 
premise of the Clean Water Act. If you----
    Mr. Krancer. Oh, no, no. You are misunderstanding me. That 
is absolutely false.
    Mr. Bishop. OK. Then----
    Mr. Krancer. This--the Clean Water Act, as many Federal 
environmental statutes do, set a Federal-State partnership. No 
question about that.
    Mr. Bishop. Correct.
    Mr. Krancer. OK. But you know what? Number one, fracking 
has never been regulated by the Federal Government. I have a 
section in my testimony about the so-called Frack Act, and 
about the other myths that are surrounding that issue----
    Mr. Bishop. What is being contemplated here is the 
regulation of the waste water from the fracking.
    Mr. Krancer. Mm-hmm. I am sorry, go ahead, I----
    Mr. Bishop. Is that OK?
    Mr. Krancer. I misunderstood. Go ahead.
    Mr. Bishop. OK. Look, I am not trying to be difficult, I am 
trying to understand something here.
    If New York, which is part of the watershed of the 
Delaware, part of the watershed of the Susquehanna, if New York 
decides that they don't care about environmental standards at 
all, and they are not going to adopt the standards that 
Pennsylvania has adopted, or be anywhere near as concerned as 
Pennsylvania is, does that not have impact on Pennsylvania's 
waters?
    Mr. Krancer. Yes, certainly it does, Representative. But 
you and I, I think, are having a fundamental philosophical 
disagreement that probably goes back to 1787, when the 
Constitution was formed. I have a certain idea of federalism 
and where the State's role is, and yours apparently is not 
where mine is, nor is it where other--even the EPA's is, 
because even the statutes establish a State primacy system.
    Mr. Bishop. OK. I am not prepared to have a philosophical 
discussion with you. I just want to know what would 
Pennsylvania do if New York, in the highly unlikely eventuality 
would say, ``Pennsylvania is far too stringent, far too strict, 
we are not doing this.'' What impact does that have on 
Pennsylvania's waters, and what would Pennsylvania's response 
be?
    Mr. Krancer. Well, Representative, I have been a litigator 
and a judge far too long to be able to answer complete 
hypothetical questions.
    Mr. Bishop. Thank you. All right. I will ask one more 
question.
    How many jobs were lost when chapter 95 regulations were 
put into place?
    Mr. Krancer. Well, I don't have an answer for that, but I 
think jobs have been increased, quite honestly, because what--
--
    Mr. Bishop. OK, so----
    Mr. Krancer. Let me finish. What I have seen is a rush of 
capital coming to Pennsylvania to answer the call that was set 
when we established those standards. I have seen new businesses 
come to Pennsylvania, new jobs created by this----
    Mr. Bishop. So----
    Mr. Krancer [continuing]. New opportunity, where the 
invisible hand of the marketplace is taking control to bring 
jobs.
    Mr. Bishop. I appreciate your response. You simply have 
illustrated that not all regulations are job-killing 
regulations. Some regulations are grounded in science and in 
good sense, and in prudent public policy.
    Mr. Krancer. Well, quite honestly----
    Mr. Bishop. I yield back the balance of my time.
    Mr. Krancer [continuing]. I don't think that is the point 
here today, whether certain regulations create jobs or don't 
create jobs. I think the point we are talking about is these 
particular regulations and the way the States handle waste 
water, which I think in my State is handled very well. In Ohio 
I have heard it is handled very well. In Oklahoma I have heard 
it is handled very well. And I have heard the EPA say the 
States handle it very well.
    Mr. Bishop. Then you would have nothing to fear from a 
national standard. I yield back.
    Mr. Gibbs. Representative Shuster?
    Mr. Shuster. Thank you very much, Mr. Chairman. I think we 
would have something to fear from a national standard because I 
think that, as Secretary Krancer pointed out, it would be 
lowest common denominator, and what happens in Oklahoma it 
may--is very different than Pennsylvania.
    So I think there is a real problem with the continued 
expansion of regulations by the Federal Government. When the 
States, based on what we heard from EPA today, what we heard 
from--previously, in some cases--from Administrator Jackson, 
that the States are doing a very, very good job of that.
    I wondered, Secretary Krancer, if you could just talk 
through a little bit about--I mentioned earlier about the Corps 
of Engineers, and the definition of single and complete 
projects. And can you talk to us about--you know, here is a 
situation where the Corps of Engineers has reached out and have 
changed the rules, have changed the interpretation. Can you 
tell us what impact that has had on Pennsylvania and the 
economy, and your views of what they are doing?
    Mr. Krancer. Well, it is a good question. We are working 
through that with the Army Corps now to certainly put a stopper 
on some pipeline projects, pipeline projects that Pennsylvania 
had regulated for years and years. And not just--linear 
projects aren't just pipelines, they are roads, they are 
electric lines, so on and so forth.
    The bottom line is that we need to get this resource to 
market, and we need the pipelines to do that. And, at the end 
of the day, of course, pipelines are buried, they are--
invasiveness is very low. They are like electric lines: 
emotional at the time, but when it is all over you never know 
they were even there.
    Mr. Shuster. Thank you. And Chairwoman Murphy, can you talk 
a little bit about your view on the national standard? Do you 
believe we need one, or do you believe that what is happening 
today, the States are doing well and there is no need for the 
EPA to come in and set these minimum national standards?
    Ms. Murphy. I will note that I came directly here from the 
National Association of Regulatory Utility Commissioners 
conference in St. Louis. And one of the common denominators 
there was the collaboration among the States in working 
together to actually have best practices in working with the 
industry.
    It just seems to me, just from my basis as a regulator, we 
have an open rulemaking process where environmentalists, 
landowners, everyone comes. We have technical conferences. It 
is very open, lots of dialogue before any particular rule is 
proposed. It seems like the way that the Environmental 
Protection Agency goes about some of their rules, they propose 
rules, then you have comments, then time passes and then here 
is the rule. And it seems like maybe it is a better approach--
and I think the States, certainly Oklahoma, does it--where you 
have the dialogue first, and get some ideas before you start 
proposing rules for people to comment on. So, I think it is a 
different approach.
    But all that said, I believe that the States individually, 
and the States working in collaboration through STRONGER, 
through the IOGCC, through some of these other groups, are the 
best approach.
    Mr. Shuster. Mr. Stewart, you care to comment on that, your 
view of EPA putting a minimum standard out there?
    Mr. Stewart. The problem with a minimum standard is we have 
already discussed how State geology and geography all matters 
in how you set minimum standards at the Federal level. Most 
minimum standards are set focused on a particular source point.
    The problem is that the source points for this particular 
concept are individual wells and formations that can 
drastically change in their characteristics well to well to 
well. So I concur with Congressman Lankford, that the best way 
to have this type of regulation is the people that are closest 
to the wellhead, the people that are the boots on the ground, 
that understand what that waste flow coming from that 
individual well or individual play means when it comes to 
standards on effluent discharge.
    Mr. Shuster. Right. And Mr. Hanlon, the EPA, do you have 
that same view, that the geology is different in Pennsylvania/
Ohio versus Oklahoma/Texas? Is that the EPA's view, that it is 
very different?
    Mr. Hanlon. The geology is different. As I said earlier, 
the regulation that we began last month is one that would deal 
with pretreatment requirements for waste water that go to 
either municipally owned waste water treatment plants, or to 
centralized waste treatment facilities. So it is basically--the 
water that comes up, should it be pretreated? And if so, at 
what level before it goes to either of those waste water 
treatment plants?
    It has nothing to do with what happens in the well. It has 
nothing to do with sort of how that water is taken out. But 
rather, whether it needs to be pretreated before it goes to a 
municipal plant or a centralized waste treater, and whether 
some baseline technology should be applied to that, which is 
really irrelevant, in terms of the geology.
    Mr. Shuster. My time has run out, but the chairman would 
indulge me for one more question, and have Secretary Krancer 
comment on what Mr. Hanlon just said, and your view on that.
    Mr. Krancer. I am not sure how it fits in, to be honest 
with you.
    And again, Pennsylvania took care of its POTW, CTW end of 
things. The reason we are here today is because EPA was trying 
to give us free advice on things we had already done, and we 
pointed out to them, hey, instead of commenting on our house, 
why don't you get your own house in order on your Federal end, 
the ELGs, and that is why we are here.
    Mr. Shuster. Thank you very much, and thank you, Mr. 
Chairman.
    Mr. Gibbs. Mrs. Napolitano. Representative? Do you have 
questions?
    Mrs. Napolitano. Thank you, Mr. Chair. To Ms. Groome, it is 
my understanding that your recent survey found that the 
majority, if not all of your members, are currently refusing to 
accept fracking fluids at their plants. And is that accurate?
    And then I have a followup on that. The Federal Register 
says most treatment plants do not have technology to treat 
fracking waste water. It also states that, independent of the 
Clean Water Act requirements, it is uncommon that sewage plants 
have established local limits for the pollutants or parameters 
of concern in the shale gas waste water, nor have they 
established water quality-based effluent limits for such 
parameters.
    Then, if you can, give us some examples of other industrial 
waste discharges that have had national pretreatment standards 
established that have been effective in protecting the 
operations of the sewage plant treatment and protecting water 
quality. It is a mouthful.
    Ms. Groome. Yes, it is. I have been with the city for 35 
years, so I was with Greensboro before the pretreatment program 
ever began. So I did see all of the categorical standards come 
through. So, as I have said in my testimony, nothing prevents a 
POTW from taking fracking waste water now, unless the State 
itself has prevented it.
    The organic chemical industry, for instance, we had several 
in Greensboro long before the national pretreatment standard 
came out. We had been accepting waste water from them. We had 
developed local limits. So you certainly can develop----
    Mrs. Napolitano. But has your survey found that most of 
them do not want to take that treated waste water, or the waste 
water?
    Ms. Groome. I think until they can characterize the waste 
water, they probably will say no. But we can certainly ask. We 
want a complete characterization of this waste water. We will 
do studies at our particular treatment plant to see if we can 
handle it.
    The local limits process can be used for any pollutant. Do 
we currently, most of us, have total dissolved solids, local 
limits? No. But that does not mean that you cannot use the 
local limits process in order to develop them, if you need to.
    Mrs. Napolitano. OK. Re-injecting the waste water, of 
course, has some contaminants that, if they put in a truck and 
send it down to the waste treatment plants, my understanding is 
some of them may not be able to effectively remove all the 
contaminants that they are--that they should be required to do.
    Ms. Groome. That is indeed true. I think there will be 
waste water treatment facilities in this country that cannot 
handle fracking waste water without pretreatment. There may be 
others that will be able to. A lot of it depends on the size. 
There are treatment plants--Chicago's is 1 billion gallons. Of 
course there is no fracking going on around there. But a small 
treatment plant may not be able to handle it, that is correct.
    Mrs. Napolitano. Thank you. Mr. Hanlon, Mr. Stewart asserts 
in the testimony that developing an effluent limit guideline 
for pretreatment of fracking fluids before they are disposed of 
at pretreatment plants would likely be meaningless, because 
every well and formation will be so different. And hence, 
determining what will be in the fracking fluid will have no 
consistency from one well to the next.
    But aren't there certain chemicals that are routinely used 
in hydraulic fracking--in fracturing that you will be looking 
at to determine whether pretreatment standards are warranted? 
And, furthermore, aren't there certain effluents, like total 
dissolved solids, that we already know to be a problem? And 
isn't that why Pennsylvania adopted new regulations related to 
fracking waste water, and why the secretary in the department 
of environmental protection in the State asked EPA to update 
its effluent limit guidelines for total dissolved solids and 
bromides for centralized waste treatment plants?
    Mr. Hanlon. It is true that the produced water, flow-back 
water, from individuals wells are not the same. Basically, 
there is a distribution. For example, for total dissolved 
solids, the ranges we have seen are as low as 300 and as high 
as 345,000 parts per million. Some parameters of that high TDS 
waste stream are--some parameters tend to sort of dominant the 
TDS profile in Marcellus formation--chlorides for example, 
basically salts--tend to be very high, as high as 190,000 parts 
per million.
    So, there are sort of similarities that we have seen in the 
limited data to date, in terms of the flow-back water that 
comes from shale gas operations, and that the thinking and the 
reason for initiating the process for the guideline--and this 
is what the data collection will show us over the next 2 or 3 
years, as we develop the proposal--is are there technologies 
out there that will provide a consistent, affordable level of 
treatment to those flow-back waters prior to their being sent 
to either a centralized waste treatment facility or a municipal 
plant.
    Mrs. Napolitano. And my time is almost--in fact, it has run 
out. But has there been any new R&D done on the ability to 
utilize whether it is the membranes or other systems to be able 
to take care of those new----
    Mr. Hanlon. My understanding is the industry is, in fact, 
doing that research. EPA is, you know, from a research 
standpoint and budget constraints, would not likely be doing 
that.
    Membranes are very difficult, because at 200, 300 parts per 
million, the energy cost for sort of moving water across a 
membrane would be very high. In fact, my understanding is, on 
site, there are companies using distillation technologies that 
basically take the water out, and basically you have a solid 
waste, then, that you can send to a landfill, et cetera.
    So that is the thought process of--conventionally designed 
municipal waste water treatment plants using activated 
suspended growth process do not take out the parameters that 
are in shale gas flow-back water; all they do is dilute it.
    Mrs. Napolitano. Thank you, Mr. Chair, for your indulgence.
    Mr. Gibbs. Mr. Bucshon?
    Dr. Bucshon. Thank you, Mr. Chairman. I think all of us 
would agree that we all want clean water, clean air. I just 
want to state that upfront.
    But what I want to focus my questioning on is timing. And I 
guess we have been fracturing for about 60 years. And so I 
guess I would ask Mr. Hanlon. It says in here that you--EPA 
received a request from Congress in March of 2010 to review 
this process. Who requested it, and I--so was it a committee? 
Was it a specific Member of Congress? I would like to know who 
specifically requested it, and if you have any documentation of 
that request being sent to EPA.
    Ms. Dougherty. If it is OK, I will answer that question. It 
was requested, actually, by EPA's appropriation committee. And 
we usually----
    Dr. Bucshon. OK, EPA appropriation committee. So that was 
the appropriations--who, specifically? It says Congress 
requested it, and I want to know----
    Ms. Dougherty. Well, it was the appropriation----
    Dr. Bucshon. You know, ``Congress'' implies to me that some 
Members of Congress thought this was a problem, and they 
requested EPA review it.
    Ms. Dougherty. I believe it was requested in the fiscal 
year 2010 appropriation conference committee report. But it 
might have been in other--it might have been the bill language. 
But I think it was in the report language.
    Dr. Bucshon. OK. Can you----
    Ms. Dougherty. It says--I can read it to you. So it is 
``The conferees urged the Agency to carry out a study on the 
relationship between hydraulic fracturing and drinking water, 
using a credible approach that relies on the best available 
science, as well as independent sources of information. The 
conferees expect the study to be conducted through a 
transparent peer-reviewed process that will ensure the validity 
and accuracy of the data. The Agency shall consult with other 
Federal agencies, as well as appropriate State and interstate 
regulatory agencies in carrying out the study, which should be 
prepared in accordance with the Agency's quality assurance 
principles.''
    Dr. Bucshon. OK. So it is in a conference report. Was that 
related to a specific bill that was trying to be passed from 
the----
    Ms. Dougherty. I don't have the bill--the number of the 
law. It was the fiscal year 2010 appropriations----
    Dr. Bucshon. Because I would be interested in knowing what 
that was, and whose--if it was a conference report on a 
specific piece of legislation, who sponsored the legislation--
--
    Ms. Dougherty. Well----
    Dr. Bucshon [continuing]. And who was on the--who were the 
conferees----
    Mr. Bishop. Doctor----
    Mr. Gibbs. Representative, would you yield for a second?
    Dr. Bucshon. Yes, yes.
    Mr. Bishop [continuing]. Bucshon, would you----
    Dr. Bucshon. I will yield.
    Mr. Bishop. Thank you for yielding. Please correct me if I 
am wrong, but it was in the energy and water appropriations 
bill for fiscal year 2010 conference committee report.
    Dr. Bucshon. Yes, OK.
    Mr. Bishop. Means it was agreed to by a majority of the 
conferees----
    Dr. Bucshon. Right.
    Mr. Bishop [continuing]. And then passed by both chambers.
    Dr. Bucshon. Yes, I understand.
    Mr. Bishop. I am sorry, I just----
    Ms. Dougherty. I can get you the----
    Mr. Bishop. Not energy and water, interior.
    Dr. Bucshon. OK, thank you.
    Ms. Dougherty. I will get the----
    Dr. Bucshon. And so, with that--OK, I understand that. I 
was just--my ears hear that--hear, you know, ``requested by 
Congress,'' I want to know more specifically who requested it 
and why.
    And I guess that leads into my next question, is do you 
know--was there--are there specific incident somewhere in the 
United States that spurred on this request? I mean is there--it 
is again about timing. Because I am--as you probably gather, I 
am a little bit skeptical about the timing on some of these 
things, as it relates to the Federal EPA in the last--since I 
have been here in Congress. So I am trying to see if there is, 
you know, some background information to provide the reason why 
this was requested, and why the--I guess the conferees, I 
suspect, most likely--that don't agree with me on environmental 
issues requested it. Is there any--do they have background in 
their request?
    Ms. Dougherty. I am not aware of specific background 
related to that, but I can check for the record----
    Dr. Bucshon. So I guess the question begs to why. I mean I 
guess--Mr. Hanlon, can you answer that, why EPA--I mean usually 
when I do things at my office--and I was a heart surgeon 
before--I usually want to know why. Why specifically now? I 
mean why do we need--you know.
    And it seems like, to me, that you should have the answer 
to that, which means--to me it either has to be there was a 
specific incident related to a problem related to fracking, 
there was evidence of ground water contamination somewhere in 
the 50 States, a specific reason why the Federal Government 
would all of the sudden decide that it needs to try to usurp 
the State's role in regulating their environment in their own 
State. I mean I want to know specifically why.
    Mr. Hanlon. We are not--I am not aware why Congress put 
that request in the appropriations report for EPA to conduct 
the study. It was congressional request to the EPA in our 
appropriations report. We are very sensitive and responsive to 
requests of the appropriations committee.
    Dr. Bucshon. OK, thank you. I yield back.
    Mr. Gibbs. Mr. Altmire?
    Mr. Altmire. Mr. Hanlon, I am going to ask about the 
bromide level in western Pennsylvania waters. There was a 
recent Carnegie Mellon University study and others that have 
shown an increased level of bromides. Some have equated that in 
a cause and effect relationship to the fracking process.
    And I wondered if you were prepared to offer an opinion on 
is the increased level of bromides in any way related to 
hydraulic fracturing? Does that in any way endanger our 
drinking water? Is it definitely caused by the fracking? And if 
not, does the EPA also monitor other heavy industries and the 
release of bromides into the water?
    Mr. Hanlon. We are sort of following the issue of bromides 
in drinking water. My understanding is that potential sources 
of bromides into surface waters include shale gas flow-back 
water, mining operations, a potential source of water, as well 
as power plants, especially those that are installing flue gas 
to de-sulfurization units and the waste water that results from 
that.
    The complication is that, as bromine increases in surface 
waters that then become intake waters for drinking water 
treatment plants, it significantly increases the potential for 
creating brominated trihalomethanes, which are carcinogens. 
They are more toxic than chlorinated trihalomethanes. They are 
less volatile. That means sort of when--they are more difficult 
to evaporate. And so they are on our radar screen.
    I know the States, including Pennsylvania, are looking 
closely at these issues.
    Mr. Altmire. But do----
    Mr. Hanlon. Cynthia and I were in our region three office 
in Philadelphia last month and received a briefing in terms of 
the work that is ongoing regarding bromine, where it comes 
from, to alert drinking water treatment plants to test more 
regularly for this, and then to look at enhancements, potential 
enhancements, to the drinking water treatment process where 
there are elevated levels of bromine in the intake water.
    Mr. Altmire. But you listed a whole bunch of things that 
could be the cause. Do you think that fracking is one of the 
causes?
    Mr. Hanlon. I believe so, yes.
    Mr. Altmire. When you, the EPA--it probably was not you, 
specifically--the EPA testified before the Senate about the 
natural gas waste water standards recently, and they were 
asked--the witness was asked the reasoning for developing the 
standards, and they responded to the Senate that it was because 
of a request from Pennsylvania in dealing with the POTW issues.
    Pennsylvania, of course, now has a zero discharge standard 
on that. So I am wondering if you feel that moving forward with 
the request to pursue these standards, given the fact that the 
entity that requested you look into this has now made a 
decision to no longer do the discharge into the POTWs, if you 
think the question is now moot.
    Mr. Hanlon. I believe the EPA witness that you refer to is 
sitting to my left.
    Mr. Altmire. OK. Well, maybe Ms. Dougherty, and then you 
could answer the question.
    Mr. Hanlon. In that case, basically the decision to 
initiate work on an effluent guideline was, in part, responsive 
to the position taken by the State of Pennsylvania. Again, my 
understanding is that their current policy is to suggest or 
encourage that publicly owned treatment works not take shale 
gas flow-back water. It is not a regulatory requirement.
    And, you know, we have talked about Pennsylvania's 
recommendation to POTWs, we have talked about Ohio's ban on 
POTWs taking flow-back water. There are dozens of States that 
are sort of managing shale gas, shale gas protocols, 
production, and flow-back water. And so this isn't a 
Pennsylvania-Ohio-West Virginia issue, it is a national issue.
    And that is why we made the decision to initiate the 
process--again, we are not publishing a proposed regulation 
next week--but to collect the data, look at sort of the issues 
of where the flow-back water is going, does it in fact pass 
through--interfere with the waste water treatment process or 
contaminate the biosolids, and if so, what technologies are 
available, what are the cost of those technologies, and then 
use that to inform a rulemaking process.
    Mr. Altmire. Thank you. And lastly, in your opening 
statement, your testimony, you say that the study, which you 
expect to be out, will include a modeling of potential impacts 
to these issues that we are discussing. And I was wondering. Is 
one of the impacts that the EPA considers--or do they 
consider--jobs created or lost as a result of these 
regulations? And when they issue a ruling, do they consider the 
economic impact to the community and to the State?
    Mr. Hanlon. The reference to the study was--the study that 
was, again, done at the request of the appropriations 
committee, or the appropriations report, and basically that is 
looking--is more focused on hydraulic fracturing fluids and 
sort of the water continuum that I described.
    The effluent guideline, the regulation that we announced 
the initiation of last month, will absolutely consider the 
economic impacts. The standard in the Clean Water Act is the 
best available technologically economically achievable. And so 
those impacts are considered--will be considered in this 
deliberation, as they are in every effluent guideline. We have 
done technology-specific guidelines for over 50 industrial 
categories over the last 35 years, and we have initiated the 
process to look at this one.
    Mr. Gibbs. Thank you. Mr. Harris?
    Dr. Harris. Thank you very much. Mr. Hanlon, let me ask you 
a question. The testimony was--I think it was the fiscal year 
2010--is that right, the appropriations bill--that had this 
language, fiscal year 2009, fiscal year 2010. Which one was it, 
fiscal year 2010?
    Do you have any idea how much your budget is lower this 
year than the fiscal year 2010 budget in the upcoming year?
    Mr. Hanlon. I don't have that number at my fingertips. I 
would be happy to get back to you through----
    Dr. Harris. It is lower, though, isn't it? Didn't we lower 
the EPA budget?
    Mr. Hanlon. Currently we are operating at the fiscal year 
2011 level under a continuing resolution, as you understand----
    Dr. Harris. Sure.
    Mr. Hanlon [continuing]. But we expect it to be lower----
    Dr. Harris. Lower.
    Mr. Hanlon [continuing]. Than it was in fiscal year 2010.
    Dr. Harris. So there is really no need to look for work, is 
there, over at the EPA?
    Mr. Hanlon. We have plenty to do every day.
    Dr. Harris. You do, don't you?
    Mr. Hanlon. Yes, sir.
    Dr. Harris. The language in that appropriations bill, it is 
not binding language, is it? It doesn't say the EPA shall do 
it--because, actually, I don't think you can do that in an 
appropriations bill--but it is not binding language, is it?
    Mr. Hanlon. I would have to sort of refer to my general 
counsel's office, in terms of----
    Dr. Harris. Ms. Dougherty, what is the language--you quoted 
the language from the bill. What does it say?
    Ms. Dougherty. It says ``the conferees urge the Agency.''
    Dr. Harris. Urge. Wow. Secretary Krancer, you are a judge. 
If somebody came to a court and said that that implied somehow 
that the EPA was forced to do it under the authority of law, 
what would you do?
    Mr. Krancer. I would have to throw them out----
    Dr. Harris. It would be summary judgment, right?
    Mr. Krancer. Yes.
    Dr. Harris. Because there is no--it says ``urge.'' Why is 
the EPA looking for work to do when your budget is being cut, 
and this language is clearly not mandatory language?
    In fact, you said it is being responsive to the 
appropriation committee request. That is what the EPA likes to 
do. Did the current appropriation committee put any similar 
language, perhaps even more binding language, in this year's 
appropriation bill coming out of this appropriation committee, 
which, I assume, is the one you would be most like to be 
responsive to?
    Mr. Hanlon. I am not aware of a similar request in the--if 
this was in the fiscal year 2010 language--in the fiscal year 
2011 language.
    Dr. Harris. Sure.
    Mr. Hanlon. The fiscal year 2012 process is pending. And--
--
    Dr. Harris. It is not--I will cut to the chase. It is not 
in the bill.
    Ms. Dougherty. Well, but----
    Mr. Hanlon. Across the board, we are responsible----
    Dr. Harris. So we have--what we have is we have a situation 
where EPA is obviously looking to create work to do when their 
budget is being cut. This is fascinating. Because I am going to 
ask the question that I asked before. Anybody on this panel 
know of a documented case of contamination of drinking water by 
the hydrofracturing technique?
    [No response.]
    Dr. Harris. I don't see a yes anywhere on the panel. There 
are--Chair Murphy, 100,000 instances nationwide of 
hydrofracturing, 200,000, 300,000? How many do you think? How 
many wells have been hydrofractured in the U.S.?
    Ms. Murphy. I can speak to my State, and my State is close 
to 100,000.
    Dr. Harris. Oh, 100,000. So let's say it is a 200,000, 
300,000, 400,000, 500,000 wells----
    Mr. Stewart. 1.2 million.
    Dr. Harris. 1.2 million wells. Now, in medicine this is 
called post-marketing surveillance, when you look for things 
that have happened in something that looks like it appears to 
be safe, like in the case of a drug. So you have administered 
1.2 million treatments, and you are telling me there is not a 
single case? Now, even the FDA, which some people have problems 
with, too, would take no action against something where you had 
1.2 million applications and nothing happening.
    Now, Mr. Hanlon, you know I just love it when people come 
here and say there is radiation going on, and there is bromine, 
and things like this that just sound terrible. Isn't bromine a 
swimming pool chemical? Mr. Hanlon, isn't it used in swimming 
pools that my children go in to swim in?
    And I am going to ask you a specific question, because you 
are all about clean water.
    Mr. Hanlon. Bromine is----
    Dr. Harris. What is the level in the hydrofracturing fluid 
that comes out, compared to the swimming pool level? It is a 
simple question. You said that you are all concerned. You have 
got to have bromine levels on this stuff. And I know my kids 
swim in swimming pools with bromine in it. Can you get back to 
me on what the level is in a swimming pool, compared to what it 
is in a hydrofracturing fluid that comes out of a 
hydrofractured well?
    Mr. Hanlon. We would be happy----
    Dr. Harris. Just to justify, you know, how you are going to 
spend a whole lot of taxpayer dollars looking at bromine, 
because it is just fascinating to me. I mean, given the setting 
we have.
    The Duke paper--I think Secretary Krancer--was it--did 
you--one of you had referenced the Duke paper in your 
testimony. Is it true that they would not reveal the locations 
of their--of the sources of their samples?
    Mr. Krancer. That is a tremendously timely question. I have 
said in the past that they have treated what they have done, 
where they have done it, their data, kind of like a Mike 
Krzyzewski game plan, that's secret. And of course I think I 
read the other day that Mike Krzyzewski just won his whatever-
thousandth game.
    Dr. Harris. Sure.
    Mr. Krancer. They have been very, very secretive. It has 
been like trying to get information from the CIA.
    Dr. Harris. Well, that is pretty interesting. Because, like 
the CIA, they actually get Federal funding to do some of this 
work. And, you know, the taxpayers, if they are going to spend 
money on things, I think they do deserve to know that. As a 
scientist, I think it is unbelievable that a group purporting 
to do scientific, carefully done research, which is frequently 
quoted, would not be willing to share that data.
    Anyway, I thank you very much, Mr. Chairman.
    Mr. Gibbs. Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman. There are a lot of 
issues, obviously, dealing with fracking. And I thank all of 
you for coming. You spent a lot of time in travel and 
preparation, and I thank you for all your written materials and 
your oral testimony and answering questions. I am sure this is 
the most fun part of your day at any point, is coming to talk 
to a congressional committee on it.
    Let me just go through just a couple questions, just to 
pull some additional information out.
    Mr. Hanlon, you had mentioned before just--the EPA and the 
study, and I understand all the study and the background, and 
some of those things on it. Have you been to a frack site 
before, personally, to walk around on a frack site?
    Mr. Hanlon. I have personally never been to a frack site. 
My staff has.
    Mr. Lankford. OK. That would be helpful, to walk around and 
get a chance to see. And I would just encourage you to walk 
around on it. When you go to a frack site and you see the 
operation, the group of professionals that are there, and the 
way the water is handled, and the transition of it, I think it 
will be very enlightening. So I would encourage you to go and 
to watch the process, as it works its way through.
    You listed off five areas--and I am going to go to a 
different area, because I was going to ask you about several 
things, but since you haven't been to a frack site, I am not 
going to ask you about those things--but you listed five areas: 
the acquisition of the water, the mix of the chemicals, the 
injection, the flow-back, and the waste water.
    There are a couple areas in here. Obviously, when you are 
dealing with the water that gets into a drinking water source, 
and as it moves into a stream, or if it is just taken out of 
the well and dumped straight into someplace, obviously that 
would cause major concerns. That is not what is happening at 
this point.
    In 2005, Congress did enact a law that excluded hydraulic 
fracking in the permitting, in the safe drinking water, except 
in a couple areas. One is diesel is used. Do you know if diesel 
is still being used in many hydraulic fracking jobs, or what 
percentage of jobs are still using diesel? Yes, ma'am?
    Ms. Dougherty. I don't know percentage, but we do know that 
diesel fuel is being used in hydraulic fracturing fluid from 
statements that have been made by--in public forums by--or in 
public discussions with members of the industry and other 
information. It has been----
    Mr. Lankford. So--but in the study of this, are you 
limiting your study to only those that use the diesel fuel as a 
part of it, or is your study for every area? Because I 
understand the diesel fuel is a restriction----
    Ms. Dougherty. I believe that the study is for hydraulic 
fracturing, overall, and the use----
    Mr. Lankford. OK.
    Ms. Dougherty [continuing]. And the water cycle related to 
hydraulic fracturing, overall.
    Mr. Lankford. So, because safe drinking water--because it 
specifically notes that it is excluded from that, from 
regulating it unless it uses diesel, but the study is studying 
all of it. And so is the hope that they will come back to 
Congress and say, ``We have done this study, here is this 
information, Congress. If you want us to regulate these areas, 
here are the information,'' and assume there will be new laws 
that will be passed on that? Because I am trying to figure 
out--if there is not an assumption you are going to do a study 
and begin regulations when it has been specifically excluded in 
the law.
    Ms. Dougherty. Well, there are two different--we might be 
getting confused. There is a study that will be done in terms 
of collecting information related to the effluent guideline 
that Jim Hanlon has been talking about.
    Mr. Lankford. Right.
    Ms. Dougherty. But the study that our research office is 
doing is related to the use of water and hydraulic fracturing, 
and the impact on drinking water resources.
    Mr. Lankford. Right----
    Mr. Hanlon. We understand----
    Ms. Dougherty. And so they are looking overall----
    Mr. Hanlon [continuing]. The results of that study could 
not result in a regulation of injection, but for the diesel 
exclusion.
    Mr. Lankford. Right.
    Mr. Hanlon. Basically, that is excluded by the 2005 law, 
and we understand that.
    Mr. Lankford. Correct. So the study assumes that you are 
going to provide information and research, but not new 
regulations based on that----
    Ms. Dougherty. Yes.
    Mr. Lankford [continuing]. Because of the exclusion?
    Ms. Dougherty. Yes.
    Mr. Lankford. OK. The peer review that is in the statement 
as well that is from the fiscal year 2010 appropriations piece, 
it does, you know, obviously encourage. But it also says it 
must be scientifically based and peer reviewed. How is EPA 
fulfilling that peer review? Are you allowing industry, outside 
watchdog groups, environmentalist groups, to be able to tag 
along when a study is done at various--do you all take a 
sample, they take a sample?
    I raise the assumption at the end of the day, when the 
study is released, you allow people to be able to review it. 
That peer review, how is that being fulfilled currently?
    Ms. Dougherty. I--it is probably better to get some 
information for you for the record. But the Agency is going 
through a significant process to make sure we do peer review at 
many different steps.
    We did a peer review with the scientific advisory board of 
the Agency and took public comments on the initial draft study 
plan. We are doing, under our normal quality assurance 
requirements, quality assurance project plans for each of the 
pieces of the study, including the case studies that are being 
done. Some of the prospective case studies are being done in 
concert with industry, because we have got to do it at----
    Mr. Lankford. Sure.
    Ms. Dougherty [continuing]. A well where they are doing 
work. The retrospective will be laying out the information. 
But--and we have been discussing the plans with landowners and 
State and local and industry representatives. But I believe we 
will be as transparent as we can be, but we won't be having 
industry necessarily follow us around as we do our work.
    Mr. Lankford. Great. Is that--Mr. Chairman, could I request 
this committee request of EPA that there is a--the peer review 
portion of this, that that is something they submit back to us, 
what the process is, and how the transparency--and I appreciate 
the openness and the transparency on that, but that we get the 
actual document that shows the peer review process, and how 
that is being fulfilled, just as a part of our oversight role?
    Mr. Gibbs. Yes, we will request that.
    Mr. Lankford. Thank you. With that, I yield back.
    Mr. Gibbs. Ms. Dougherty, you have to leave at noon, and 
you are excused, and thank you for being here.
    At this time, Ms. Beutler, do you have questions?
    Ms. Herrera Beutler. Yes. Thank you, Mr. Chairman. This is 
pretty simple, and I kind of smile because I am sitting in 
between two doctors, like a heart surgeon and a--I mean this is 
a simple question, which I am sure anyone here can answer. But 
it would help me understand.
    You know, in the move to look at possibly requiring a 
pretreatment standard before it goes to a POTW--and what I was 
hearing was, well, what if a--this potable water is driven to 
Virginia or outside of Pennsylvania or, you know, who knows--
maybe they want to drive it to Washington State, probably get 
sent back at the border.
    But does a POTW not have the ability to say we can't or 
won't treat that, go somewhere else? And wouldn't someone who 
is driving that water, right, who is probably with the company 
who is doing the fracturing, say, ``Hey, maybe we should figure 
out where we are going to take this''? Isn't that kind of 
pretty--I would assume that is somewhat prearranged. You know 
you are taking it somewhere where they can handle what you are 
going to take. Is that way beyond----
    Mr. Krancer. Well, let me take a shot at that. I think you 
are essentially--maybe more than essentially--very correct. 
POTWs, CTWs have certain permit limits that they must meet, and 
they must meet them. So whatever comes in on the outside has to 
meet the permit limits. So, ergo say in Pennsylvania, for 
example, we now have the new total dissolved solids regulations 
that apply to this particular waste stream, 500 milligrams per 
liter. So, whatever goes in has to be able to meet 500 
milligrams per liter on the way out.
    Now, those folks who are taking it in will know whether it 
can or can't. And if it can't, then that is a no-no, and they 
are not supposed to do that. That is the way the system works. 
So I think you have very accurately described it, as far as I 
can see.
    Ms. Herrera Beutler. So if a State has a concern about the 
level or quality of this waste water, they could simply choose 
to not allow it to be disposed of in their--in a facility or in 
their locality?
    Ms. Groome. Yes, and the State does not have to be the one 
that makes that determination. Each local municipality has the 
authority, just as you said, to say, ``No, we are too small to 
take it, we haven't done those studies that we need to, to 
determine whether we can,'' so you are absolutely----
    Ms. Herrera Beutler. Or even, ``We don't like this, we 
don't like fracking, we don't like what you're doing, go 
somewhere else,'' right?
    Ms. Groome. Certainly. You can----
    Ms. Herrera Beutler. OK.
    Mr. Stewart. You want some followup on that? In the State 
of Ohio it has been the law since 1985 that all produced water 
from oil and gas production that include flow-back must go down 
to a class two well, pursuant to the Safe Drinking Water Act, 
and as regulated by the Ohio department of natural resources, 
under their primacy agreement with U.S. EPA.
    There has been one POTW facility that set up in the city of 
Warren that was taking waters from the State of Pennsylvania, 
operating under a permit issued by Ohio EPA. That permit has 
been withdrawn. It is somewhat controversial. The industry in 
the State of Ohio supports the disposal of produced waters down 
class two wells. But wee have great formations to take it, and 
we have a regulatory structure backed up by delegation to 
support the development of that resource.
    Other States are not as fortunate on that, and they need 
flexibility in the ability to manage this in order for this 
play to develop. Pennsylvania finds themselves in that 
situation.
    Ms. Herrera Beutler. Yield back. Thank you.
    Mr. Gibbs. Thank you. I just got a couple more questions 
for Mr. Hanlon. You know, it sounds like the EPA is moving 
forward on a number of activities. Obviously, there is the 
studies and potential rules and guidances. Are there any other 
initiatives that you can talk about that might be underway by 
the EPA you can kind of briefly outline what the thinking is 
moving forward, in regard to oil and shale gas extraction?
    Mr. Hanlon. We have talked about the effluent guideline, we 
have talked about the study--I am going by our office of 
research and development and response to the appropriations 
request. The written testimony summarizes a set of questions 
and answers that we issued in March, in terms of how does shale 
gas work within the construct of the NPDS program, both 
pretreatment and the regular sort of base program, so that is 
out and available on our Web site.
    We are--and I mentioned in the testimony--we are working on 
two other guidance documents related to Clean Water Act 
responsibilities, one guidance for permit writers--again, this 
is voluntary guidance that says if you are writing a permit for 
a centralized waste treatment facility, if you are writing a 
permit for a publicly owned treatment works, here are the kind 
of questions you should be asking to EPA and State permit 
writers, as they are dealing with this relatively unique waste 
stream.
    Again, in the southwest, in Oklahoma and Texas, permit 
writers haven't dealt with this because they have all gone down 
disposal wells. So, in areas where the option is being actively 
considered in terms of whether POTWs should take this stuff, 
what should be the questions that are asked. So that is one 
guidance document.
    And the other one is sort of as we develop the pretreatment 
regulation, the Clean Water Act requires that in the meantime, 
until there is--in the instance there is not a national 
regulation, basically there is a decision process laid out 
under current regulations that has been there for 30 years, 
where permit writers make sort of best professional judgment 
decisions in terms of whether any pretreatment should be 
required on a case-by-case basis. And so that is the second 
guidance document we are working on that was covered in the 
testimony.
    Mr. Gibbs. What is your thought on how you kind of work 
with the States and stakeholders? Do you have public hearings? 
I am concerned about having duplicative regulations and cost to 
stakeholders in the industry that is going to stifle the 
development.
    I have a bill working on pesticides, and duplicate 
regulation is really, it is a problem. What is U.S. EPA's 
intent working with the States and working collaboratively, and 
stakeholders?
    Mr. Hanlon. Again, the target audience for those two items 
of guidance are the State and regional permit writers. So, 
basically, we will be consulting with them as the guidance is 
developed.
    Mr. Gibbs. OK. Another question, quickly. I understand that 
the EPA's Federal authorities are developing best management 
practices for controlling erosion and sediment from storm water 
runoff at oil and gas drilling sites under construction. What 
is the EPA's planning with respect to storm water and sediment 
controls? Are you planning to do guidances--States are 
implementing certain things; what is happening in that area?
    Mr. Hanlon. A number of years ago--and I believe it was the 
2005 Energy Policy Act exempted oil and gas exploration and 
production activities from storm water regulation.
    Mr. Gibbs. That is correct.
    Mr. Hanlon. And so, basically, that exemption is in place, 
except that--and there were two exceptions--to the extent that 
runoff from an oil and gas construction site results in a 
violation of a State water quality standard. And the State sets 
a standard. If there is a violation of a standard, then 
basically that site is in violation--is discharging in 
violation of the Clean Water Act.
    Or, if there is a discharge that results in a reportable 
quantity of a constituent of production--so if there is an oil 
sheen, some of the oil is getting out and getting into the 
creek, then basically that is also not covered by the 
exemption. We are not--you know, as a matter of course--and we 
have sort of dealt with oil and gas construction sites across 
the country--there aren't issues.
    My understanding--and I talked to our water director in 
region three in Philadelphia this morning--they have done a 
series of inspections sort of in the Mid-Atlantic region, and 
they have visited a number of sites where the well pad itself 
is constructed in the stream bed. I would suggest that if they 
have done that, there was probably runoff as they were 
constructing that into the stream that probably violated State 
water quality standards.
    Again, I wasn't there, I didn't observe that. But if that 
happened, then I think we would--I would sort of assert that 
sort of that is a violation, and that site would not enjoy the 
exemption.
    Mr. Gibbs. Mr. Stewart, do you have any comments on that? 
Do you have any issues in Ohio with site selection with the 
EPA, in regard to storm water runoff?
    Mr. Stewart. There was two instances in the State of Ohio 
as the shale was getting underway last year, in which an 
operator had a location that was very approximate to a stream. 
They violated the law, they were cited, and faced censure by 
both the department of natural resources and Ohio EPA.
    Mr. Gibbs. So State regulation in place took care of the 
problem. I thought so.
    Mr. Stewart. Yes.
    Mr. Gibbs. OK.
    Mr. Hanlon. Just, again, a clarification on that point. In 
an example like that, both Ohio and Pennsylvania are authorized 
to implement the NPDS program. That would be a discharge in 
violation of the Clean Water Act. As I said earlier, those 
States would take appropriate Clean Water Act actions.
    Mr. Gibbs. I've got one final question, I guess.
    The EPA's regional offices, they have authority to develop 
their own policies and guidance under the Clean Water Act. Do 
they have that authority?
    Mr. Hanlon. The Clean Water Act--and I have sort of said 
this publicly many times--was elegant in its design. So the 
designers back in the early 1970s, I think, came up with very 
elegant design. It is tedious in its implementation, there are 
a lot of moving parts. And so it is common that regional 
offices, when they work with States, will basically deal with, 
sort of on a State by State, sort of site by site basis, 
interpretation of the statute, of the regulations, and of 
national guidance that is----
    Mr. Gibbs. Do you know of any specific examples of any 
regional offices taking steps related to this issue?
    Mr. Hanlon. Not that I am aware of.
    Mr. Gibbs. OK. I yield to Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman. And I will 
be brief. I thank you all.
    I just want to thank you, Mr. Hanlon, for responding on 
behalf of the EPA to the interior committee conferees request 
that you conduct a study. And I understand that we did not use 
the highest order of imperative there. We did not say 
``shall.''
    But we hear routinely from our friends on the other side of 
the aisle about faceless Washington-based bureaucrats 
arrogating to themselves authority that they do not have or 
ought not to exercise. If we are at the point where these same 
faceless Washington-based bureaucrats are going to arrogate to 
themselves the authority to ignore the clearly express will of 
the Congress, such will being a bipartisan expressed will of 
the Congress, then we are in a sorry state of affairs, indeed.
    So, I thank you on behalf of the EPA for responding to that 
request.
    And I also just--again, I don't think any one of us ought 
to fear data. You are conducting a study on drinking water--by 
the way, not the subject of this hearing--you are conducting a 
study on drinking water, which will be presumably based in 
sound collection of data. And your effluent guidelines work 
right now is, right now, engaged in the compilation of data. 
That is something that we all ought to welcome. We ought not to 
speak disparagingly about it. We ought not to fear it. We ought 
to welcome it. And I thank you for conducting it. I yield back.
    Mr. Gibbs. Just one final comment. I think data is 
important, to collect the data and make sure it is done in a 
scientifically way--based way. I think the purpose of this 
hearing was to bring out in the open to make sure that the U.S. 
EPA and their respective State EPAs can work collaboratively, 
and we can develop this natural resource.
    And it is a huge economic boom in job creation, and it is a 
national security issue because we spend almost $1 trillion 
overseas for oil, and we don't really need to be doing that. 
And we have a huge opportunity that is in our lifetimes to 
experience--especially in my area in Ohio, with the Utica 
shale, we are really excited about it.
    And, you know, I am confident--it was good to hear the 
regulators from Oklahoma and Pennsylvania stating the 
experiences they are having, the excellent environmental record 
that they have had to protect the environment, and we can move 
forward, I think. But I want to make sure that the Federal 
regulators are doing their part to not have duplicative 
regulations, duplicative costs, and making sure that they are 
doing their--I think the Clean Water Act is supposed to be 
implemented by the States under the auspices, authority, 
oversight, of the Federal Government, but let the States do 
their thing. If they are doing their thing, let's let it 
happen. And that is what I think----
    Mr. Bishop. Very quickly, I hope this is not going to be 
hard, since it is just you and me left, but I am asking for 
unanimous consent to enter into the record a statement from the 
San Juan Citizens Alliance regarding this issue.
    Mr. Gibbs. So ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1234.011
    
    [GRAPHIC] [TIFF OMITTED] T1234.012
    
    [GRAPHIC] [TIFF OMITTED] T1234.013
    
    Mr. Bishop. Thank you. I yield back.
    Mr. Gibbs. And again, I want to thank the witnesses for 
coming and preparing. And we look forward to developing these 
resources.
    The committee is adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
